Department of Homeland Security
   Ofﬁce of Inspector General
      Information Technology Management Letter 

                    for the FY 2008 

            Customs and Border Protection 

               Financial Statement Audit 

                      (Redacted) 





 Notice: The Department of Homeland Security, Office of Inspector General has redacted the report for public
 release. A review under the Freedom of Information Act will be conducted upon request.




OIG-09-59                                                                                         April 2009
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 25028




                                   April 16, 2009

                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the
Inspector General Act of 1978. This is one of a series of audit, inspection, and special reports
prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report presents the information technology (IT) management letter for the FY 2008
Customs and Border Protection (CBP) balance statement audit as of September 30, 2008. It
contains observations and recommendations related to information technology internal control
that were not required to be reported in the financial statement audit report (OIG-09-09,
November 2008) and represents the separate restricted distribution report mentioned in that
report. The independent accounting firm KPMG LLP (KPMG) performed the audit of CBP’s
FY 2008 financial statements and prepared this IT management letter. KPMG is responsible
for the attached IT management letter dated December 4, 2008, and the conclusions expressed
in it. We do not express opinions on CBP’s financial statements or internal control or make
conclusions on compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We trust
this report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




December 4, 2008

Inspector General
U.S. Department of Homeland Security

Commissioner
U.S. Customs and Border Protection

Chief Information Officer
U.S. Customs and Border Protection

We have audited the consolidated balance sheets of the U.S. Department of Homeland Security’s
(DHS) Customs and Border Protection (CBP) as of September 30, 2008 and 2007, and related
consolidated statements of net cost, changes in net position, custodial activity and the combined
statement of budgetary resources (hereinafter, referred to as “consolidated financial statements”) for
the years then ended. In planning and performing our audit of CBP’s consolidated financial
statements, we considered CBP’s internal control over financial reporting in order to determine our
auditing procedures for the purpose of expressing our opinion on the consolidated financial statements.

In connection with our fiscal year 2008 audit, we considered CBP’s internal control over financial
reporting by obtaining an understanding of CBP’s internal controls, determining whether internal
controls had been placed in operation, assessing control risk, and performing tests of controls in order
to determine our procedures. We limited our internal control testing to those controls necessary to
achieve the objectives described in Government Auditing Standards and OMB Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982
(FMFIA). The objective of our engagement was not to provide an opinion on the effectiveness of
CBP’s internal control over financial reporting. Accordingly, we do not express an opinion on the
effectiveness of CBP’s internal control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination of
control deficiencies, that adversely affects CBP’s ability to initiate, authorize, record, process, or
report financial data reliably in accordance with U.S. generally-accepted accounting principles such
that there is more than a remote likelihood that a misstatement of CBP’s financial statements that is
more than inconsequential will not be prevented or detected by CBP’s internal control over financial
reporting. A material weakness is a significant deficiency, or combination of significant deficiencies,
that results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by CBP’s internal controls.



                                  KPMG LLP, a U S limited liability partnership, is the U S
                                  member firm of KPMG International, a Swiss cooperative
We noted certain matters involving internal control and other operational matters with respect to
information technology that are summarized in the Information Technology Management Letter
starting on page 1. These comments contribute to the significant deficiency presented in our
Independent Auditors’ Report, dated November 15, 2008, and represent the separate restricted
distribution report mentioned in that report.

The comments described herein have been discussed with the appropriate members of management
through a Notice of Finding and Recommendation (NFR); and are intended For Official Use Only.
We aim to use our knowledge of CBP’s organization gained during our audit engagement to make
comments and suggestions that we hope will be useful to you. We have not considered internal control
since the date of our Independent Auditors’ Report.

The Table of Contents on the next page identifies each section of the letter. In addition, we have
provided: a description of key financial systems and information technology infrastructure within the
scope of the FY 2008 CBP financial statement audit is provided in Appendix A, a description of each
internal control finding is provided in Appendix B, and the current status of the prior year NFRs is
presented in Appendix C.

This report is intended for the information and use of DHS and CBP management, the DHS Office of
Inspector General, the U.S. Office of Management and Budget, the U.S. Congress, and the
Government Accountability Office, and is not intended to be and should not be used by anyone other
than these specified parties.

Very truly yours,
                                  U.S. Customs and Border Protection
                              Information Technology Management Letter
                                          September 30, 2008




                 INFORMATION TECHNOLOGY MANAGEMENT LETTER

                                     TABLE OF CONTENTS
                                                                                                Page

Objective, Scope and Approach                                                                    1


Summary of Findings and Recommendations                                                          3


IT General Controls Findings by Audit Area                                                       4


         Access Controls                                                                         4


         Application Software Development and Change Controls                                    7


         System Software                                                                         7


         Entity-Wide Security Program Planning and Management                                    7


         Service Continuity                                                                      7


         Segregation of Duties                                                                   7


Application Control Findings                                                                     12


Management Comments and OIG Response                                                             13


                                           APPENDICES

Appendix                                         Subject                                        Page

             Description of Key Financial Systems and IT Infrastructure within the Scope of 

A                                                                                                14
             the FY 2008 CBP Financial Statement Audit

B            FY 2008 Notices of IT Findings and Recommendations                                  16


             Status of Prior Year Notices of Findings and Recommendations and Comparison 

C                                                                                                30
             to Current Year Notices of Findings and Recommendations


D            Management’s Response to the Draft CBP IT Management Letter                         33





                                              3

    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit

                                 U.S. Customs and Border Protection
                             Information Technology Management Letter
                                         September 30, 2008


                             OBJECTIVE, SCOPE AND APPROACH

We have audited the consolidated balance sheets of the U.S. Department of Homeland Security’s
(DHS) Customs and Border Protection (CBP) as of September 30, 2008 and 2007, and related
consolidated statements of net cost, changes in net position, custodial activity and the combined
statement of budgetary resources (hereinafter, referred to as “consolidated financial statements”) for
the years then ended. The overall objective of our audit was to evaluate the effectiveness of IT general
controls of CBP’s financial processing environment and related IT infrastructure as necessary to
support the audit. The Federal Information System Controls Audit Manual (FISCAM), issued by the
Government Accountability Office, formed the basis of our audit. The scope of the IT general
controls assessment included testing at CBP’s Office of Information Technology (OIT) and other
offices related to the IT general controls portion of the financial statement audit.

FISCAM was designed to inform financial auditors about IT controls and related audit concerns to
assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial audit. FISCAM also provides guidance to IT auditors when considering the scope and extent
of review that generally should be performed when evaluating general controls and the IT environment
of a federal agency. FISCAM defines the following six control functions to be essential to the
effective operation of the general IT controls environment.

�	 Entity-wide security program planning and management (EWS) – Controls that provide a
   framework and continuing cycle of activity for managing risk, developing security policies,
   assigning responsibilities, and monitoring the adequacy of computer-related security controls.
�	 Access control (AC) – Controls that limit and/or monitor access to computer resources (data,
   programs, equipment, and facilities) to protect against unauthorized modification, loss, and
   disclosure.
�	 Application software development and change control (ASDCC) – Controls that help to prevent the
   implementation of unauthorized programs or modifications to existing programs.
�	 System software (SS) Controls – Controls that limit and monitor access to powerful programs that
   operate computer hardware and secure applications supported by the system.
�	 Segregation of duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to prevent one individual from controlling key aspects of computer-related operations,
   thus deterring unauthorized actions or access to assets or records.
�	 Service continuity (SC) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.

To complement our general IT controls audit, we also performed technical security testing for key
network and system devices, as well as testing of key financial application controls. The technical
security testing was performed from within select CBP facilities, and focused on test, development,
and production devices that directly support CBP financial processing and key general support
systems.




                                           1
 Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                  U.S. Customs and Border Protection
                              Information Technology Management Letter
                                          September 30, 2008



In addition to testing CBP’s general control environment, we performed application control tests on a
limited number of CBP financial systems and applications. The application control testing was
performed to assess the controls that support the financial systems’ internal controls over the input,
processing, and output of financial data and transactions.

�	           Application Controls (APC) - Application controls are the structure, policies, and
     procedures that apply to separate, individual application systems, such as accounts payable,
     inventory, payroll, grants, or loans.




                                           2
 Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                 U.S. Customs and Border Protection
                             Information Technology Management Letter
                                         September 30, 2008


                    SUMMARY OF FINDINGS AND RECOMMENDATIONS

Financial IT systems security is essential to achieving effective, reliable reporting of financial and
performance data. As a part of our engagement to perform the financial statement audit, we performed
an evaluation of the general controls over significant CBP financial IT systems. Effective general
controls are typically defined by the GAO’s FISCAM, in six key control areas: entity-wide security
program planning and management, access control, application software development and change
control, system software, segregation of duties, and service continuity. In addition to general controls,
financial systems contain application controls, which are the structure, policies, and procedures that
apply to use, operability, interface, edit and monitoring controls of an application. We tested various
application controls of key CBP financial systems as part of our IT audit test work.

During fiscal year (FY) 2008, CBP took corrective action to address prior year IT control weaknesses.
For example, CBP made improvements in how they track the hiring, termination and systems access
of contracted employees within the Office of Information Technology (OIT). Also, issues with the
tracking of backup tapes and their location were addressed, as well as issues surrounding the
management review of control overrides performed in the
However, during FY 2008, we continued to identify IT general control weaknesses at CBP. The most
significant weaknesses, from a financial statement audit perspective, related to controls over access to
programs and data. Collectively, the IT control weaknesses limited CBP’s ability to ensure that
critical financial and operational data were maintained in such a manner to ensure confidentiality,
integrity, and availability. In addition, these weaknesses negatively impacted the internal controls
over CBP financial reporting and its operation and we consider them to collectively represent a
significant deficiency for CBP under standards established by the American Institute of Certified
Public Accountants (AICPA). The information technology findings were combined into one
significant deficiency regarding Information Technology for the FY 2008 audit of the CBP
consolidated financial statements.

Although we noted improvement, many of the conditions identified at CBP in FY 2007 have not been
corrected because CBP still faces challenges related to the merging of numerous IT functions,
controls, processes, and organizational resource shortages. During FY 2008, CBP took steps to
address these conditions. Despite these improvements, CBP needs further emphasis on the monitoring
and enforcement of access controls. CBP needs to further emphasize the importance of developing
and implementing well-documented procedures at the system and entity-level. Many of the issues
identified during our review, which were also identified during FY 2007 and prior, can be addressed
through a more consistent application of DHS and CBP policies for IT controls.

While the recommendations made by KPMG should be considered by CBP, it is the ultimate
responsibility of CBP management to determine the most appropriate method(s) for addressing the
weaknesses identified based on their system capabilities and available resources.




                                           3
 Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                U.S. Customs and Border Protection
                            Information Technology Management Letter
                                        September 30, 2008


                        IT GENERAL CONTROL FINDINGS BY AREA

Conditions: In FY 2008, the following IT and financial system control weaknesses were identified at
CBP. Many of the issues identified during our FY 2008 engagement were also identified during FY
2007. The following IT and financial system control weaknesses result in IT being reported as
contributing to a significant deficiency for financial system security.


1.	 Access controls – we noted:
   �	 Some active connections to        do not have documented interconnection security agreements
      (ISA) in place;

   �	 CBP does not maintain a centralized listing of contract personnel, including employment
      status. Currently, CBP only maintains contractor information for OIT contractors. While this
      is a majority of CBP contractors, it does not include all CBP contractors. Additionally, as a
      result of additional test work, we noted data validity issues in the                          ;

   �	 CBP workstation policy for screensavers is not appropriately implemented. Specifically we
      noted that the configuration of a password-protected screensaver can be modified by the user,
      allowing that user to remove the password requirement and also disabling the screensaver
      completely;

   �	 The following issues in regard to                         for the
                                  :
              o	 A solution has been implemented to track and monitor security and audit related
                 activity but has not been operational for the entire fiscal year;
              o	 There is a configuration weakness for capturing security and audit related activity
                 in the                             Protection application. The configuration has
                 changed on multiple occurrences in regards to tracking activity for the ‘        to
                          ’ field in FY 2008; and
              o	 There is no defined method to generate and review security audit logs for security
                 violations.

   �	 CBP implemented a script to disable accounts after thirty days of inactivity. However, the
      script was not functioning appropriately for most of the fiscal year and was only remedied
      during the third quarter of FY 2008;

   �	 A total of 10 mainframe audit logs were not available for the following dates: November 12,
      2007, February 22, 2008, and March 7, 2008. For November 12, 2007, logs were not available
      for                                                         , and               . For February
      22, 2008, logs were not available for the                 and                . For March 7, 2008,
      logs were not available for                            , and               . It was further noted
      that all mainframe audit and system utility logs that went digital after April 1, 2008 were
      available for review;

   �        has been adjusted to limit active temporary and/or emergency access to 24 hours after the
       request. It was noted, however, that the emergency table is still in use. Further, administrator
       or supervisory approval is not required each time temporary or emergency access is activated.

                                           4
 Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                U.S. Customs and Border Protection
                            Information Technology Management Letter
                                        September 30, 2008


      Also, Information System Security Manager (ISSM) approval is not required, conflicting with
      DHS policy;

  �	 There are currently no procedures in place for the completion of semi-annual recertifications of
     the            accounts. KPMG also notes that a recertification of the             accounts is
     not performed on a semi-annual basis;

  �	 When changes to a user’s access are performed in       the log of these events is not regularly
     reviewed by personnel independent from those individuals that initiated the changes. It was
     further noted that logs from March 2008 through July 2008 have not been reviewed by the
           Information System Security Officer (ISSO) or an independent reviewer;

  �   Out of 25 dates selected for review, six            security violation report reviews were not
      available;

  �	 Authorizations are not being maintained for personnel that have administrator access to the
                            access control program. Additionally, it was noted in FY 2008 that
     access requests for new mainframe                                     are requested and
     approved verbally;

  �	 Access request forms were not available for review for three accounts created by the
          administrators during FY 2008;

  �	 CBP-241 Employee Separation Forms are not completed consistently, with employee and/or
     supervisor signature missing from 7 of the 25 separated employees selected;

  �   Formal procedures do not exist for the               security violation log review process. It was
      further noted that informal procedures are used by the network security specialist to inspect the
      security violation log for suspicious activity and to document the review;

  �   Formal procedures do not exist for the review process of             audit and
          . It was further noted that informal procedures are used by the            ISSOs to
      inspect logs for suspicious and unusual activity and to document the review;

  �	 The special characters requirement under password complexity was not appropriately
     configured for

  �	 Access authorizations for emergency and temporary access to
                     are not approved by the ISSM, as required by DHS policy;

  �	 A Customs Directive was provided as separation procedures for contractors and this directive
     was dated September 2001. The directive references Treasury policies as source
     documentation. This directive is out of date, as CBP is no longer a part of the Department of
     Treasury. Additionally, CBP-242 contractor separation forms are not completed consistently
     for separating CBP contractors. Specifically, it was noted that all forms for selected separated
     contractors were completed; however, 6 of the selected 25 separated contractors’ forms were
     completed at least one month after the individual separated from CBP;

  �	 Non-disclosure agreements (NDAs) are not consistently mandated for CBP contractors;

                                          5

Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit 

                               U.S. Customs and Border Protection
                           Information Technology Management Letter
                                       September 30, 2008



  �	 The parameters for the             audit and                    (
                                                                  ) are not configured to collect
     appropriate data. KPMG further noted that three out of the six
                                                                do not produce any data in the log;

  �	 CBP does not currently require individuals to sign a rules of behavior prior to gaining access to
     CBP information systems;

  �	 The following weaknesses were identified for the      Security Audit Logs procedures:
             o	 Procedures do not define how often the        security audit logs are reviewed.
             o	 Procedures do not describe the documented evidence of review process,
                 Security Violation Log Report, which is created by the        ISSO/Independent
                 Reviewer.
             o	 Procedures do not define the sampling methodology that is used to select
                 daily security logs.
             o	 Procedures were not effective for all of FY 2008 (October 1, 2007 – September
                 30, 2008);

  �	 The initial password granted to new        accounts is not in compliance with DHS
     requirements;

  �	 CBP does not have a method of tracking completion of security awareness training for CBP
     employees and contractors. Individuals from the program team responsible for security
     awareness training do not have the ability to identify those individuals who have not
     completed security awareness training and, therefore, can not ensure all CBP personnel have
     completed this training;

  �	 The     Security Administrators Handbook is out of date and has inaccurate statements of
     CBP and DHS policies. Specifically, the following weaknesses were identified:
            o	 Out-of-date references to US Customs Service,
            o	 References to out-of-date Customs (now CBP) policies and procedures (1400­
               05a),
            o	 Requirement that       initial passwords are set to a weak password string,
            o	 Statement that      does not allow special characters in passwords;

  �	 The following weaknesses were identified in       access control procedures:
             o	 A periodic (at least semi-annual) recertification of all      portal accounts is not
                 performed,
             o	 Formal procedures are not documented for the creation of          portal accounts,
             o        is not configured to disable accounts after 45 days of inactivity on the
                 system; and

  �	 Two              accounts that were created during FY 2008 did not have appropriate access
     authorization forms maintained by the                  administrators. It was further noted
     that multiple administrators on the           had accounts created by other groups than the
                       Support Team.



                                          6
Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                 U.S. Customs and Border Protection
                             Information Technology Management Letter
                                         September 30, 2008




2. Application software development and change controls – no condition noted. 



3.	 Service continuity – we noted:

   �                            is not installed on all workstations for the majority of the fiscal year as
       required. Specifically, it was noted that as of 3/31/2008, 4,751 workstations out of 50,282
       workstations do not have                     installed;

   �	 That a complete and up-to-date listing of all CBP workstations is not maintained;

   �                                the system used to enforce virus protection policies, was not
       installed on all CBP workstations on                   . It was noted that as of 8/11/2008,
       0.25% of all workstations on                    did not appear on the      listing. In addition to
       this, a conclusion could not be obtained on whether all CBP workstations have antivirus
       protection, as those workstations that are not on                  are not communicating with
            ;

   �	 The most recent business continuity planning (BCP) testing was incomplete. Specifically, it
      was noted that not all systems were brought online as required since sufficient hardware was
      unavailable at the recovery facility to fully and properly perform the continuity testing; and

   �	 Documented hardware maintenance procedures do not exist for the                environment
      supporting   .



4.	 Entity-wide security program planning and management – no conditions noted.


5.	 System software – we noted during our technical testing:
   �	 Configuration management exceptions were identified on 

                 and hosts supporting the 
 and        applications; and
   �	 Patch management exceptions were identified on hosts supporting the                      and the
                   applications.


6.	 Segregation of duties – no conditions noted.


Recommendations: We recommend that the CBP Office of Chief Information Officer (OCIO), in
coordination with the Office of the Chief Financial Officer (OCFO), make the following
improvements to the CBP financial management systems:
1.	 For access controls:
   �	 Review and maintain a listing of active connections with the         and account for each
      connection with a documented interconnection security agreement (ISA);

                                           7
 Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                U.S. Customs and Border Protection
                            Information Technology Management Letter
                                        September 30, 2008


  �   Work on the                                to ensure that all CBP contractors are included in the
      database and that the data for each contractor is complete and accurate;

  �	 Determine a method for appropriately applying CBP and DHS policy requiring automatically-
     activated, password-protected screensavers after a period of inactivity;

  �	 Properly capture appropriate audit log data per DHS policy. KPMG further recommends that a
     method for generating and reviewing security audit logs be developed for the
     according to CBP and DHS policy, to detect potential security events;

  �	 Regularly run the updated script on the system to disable user accounts after the DHS-
     specified period of inactivity;

  �	 Maintain              audit and                     per DHS policy;

  �	 Develop and implement procedures that will appropriately restrict the use of emergency or
     temporary access within        and that requires documented supervisory approval from the
     ISSM confirming this access is needed. In addition, CBP should perform regular
     recertifications of the emergency access table to ensure persons with the capability to request
     temporary or emergency access need to remain on the emergency access table;

  �   Develop formal procedures for recertifying              accounts and access to shared data and
      perform regular recertifications of            accounts and access to shared data as required
      by developed procedures;

  �   Implement the review of       security audit logs on a periodic basis by an independent
      reviewer and formalize these procedures in detail for the review of       security audit logs;

  �   Follow DHS policy and maintain documented evidence of review for                   security
      violation logs for the duration outlined in DHS policy;

  �	 Develop and implement procedures to restrict access to mainframe administrative capabilities
     and require documented authorization requests and approval for each person requiring access
     to the          administrative capabilities;

  �   Continue to develop a method for tracking and consolidating access request forms for the
           and continue to implement the procedures developed to control       account creation;

  �	 Require managers to consistently complete the CBP-241 forms that are required as set forth in
     CBP directives and policy;

  �   Create formal procedures to document the               security violation log review process;

  �   Create formal procedures to document the review process for                audit and
                ;

  �	 Follow DHS policy and improve password complexity by including special characters for the
          application;


                                          8
Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit 

                                  U.S. Customs and Border Protection
                              Information Technology Management Letter
                                          September 30, 2008


   �	 Adjust CBP-level and      -level policies to require the ISSM to approve the emergency and
      temporary access authorizations prior to access being granted. Require documented
      supervisory approval from the ISSM each time a user requires emergency access abilities;

   �	 Review contractor separation directives, document an up-to-date review of this document and
      make modifications as needed based on the new operating environment for CBP as part of the
      Department of Homeland Security. Require the consistent and accurate completion of the
      CBP-242 forms for all separating contractors;

   �	 Enforce DHS’ requirement that a non-disclosure agreement be signed by all contractors in a
      moderate and high risk level position to ensure that they are aware of their responsibilities in
      protecting the confidentiality of DHS and CBP data;

   �	 Properly configure              audit and                    to capture appropriate data for the
                                 and that CBP maintain              audit and                      per
       DHS policy;

   �	 Require all employees and contractors sign rules of behavior prior to being granted any system
      access. Additionally, for personnel that already have systems access, CBP should prioritize
      having these individuals sign rules of behavior to maintain their systems access;

   �	 Create detailed procedures that document the review process for        security audit logs that
      includes the documented evidence of review;

   �	 Update the      Security Administrator Handbook to require a strong password that is in
      compliance with DHS and CBP password policies to be set as the initial password for all new
          accounts;

   �	 Develop a method for determining individuals who have and have not completed security
      awareness so that they can actively work towards 100% compliance with the DHS requirement
      that all individuals with systems access complete annual security awareness training;

   �	 Perform a full review of the      Security Administrators Handbook and updates be made to
      the document to reflect the current operating environment. This review should be fully
      documented and the Handbook should be updated to include a change log as evidence of the
      updates made;

   �	 Document and implement policies and procedures for          access control; and

   �	 Limit the organization that can create      accounts and administrator accounts and require
      any accounts created to be created by a single organization.

2.	 No findings or recommendations were noted for application software development and change
    control.


3.	 For service continuity:



                                           9
 Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                 U.S. Customs and Border Protection
                             Information Technology Management Letter
                                         September 30, 2008


   �	 Implement procedures to regularly review and monitor the workstations that have
              installed and perform inquiries to determine why identified workstations do not have
           installed;

   �	 Work with administrators across the country to ensure that new and existing workstations are
      added to a CBP                   domain to appropriately account for all workstations;

   �	 Develop procedures to regularly review and monitor the workstations that have antivirus
      protection installed and perform inquiries to determine why identified workstations do not
      have the protection installed and updated;

   �	 Work to allocate the appropriate hardware at           to allow for the system availability to
      fully test the business continuity plan to ensure that        has the capability to support CBP
      in the event that the       is rendered unavailable for production; and

   �	 Document        hardware maintenance procedures to ensure a consistent application of
      maintenance methodologies for the     environment.

4.	 No findings or recommendations were noted for entity-wide security program planning and
    management.


5.	 For system software:
   �	 Immediately address configuration management exceptions that were identified during 

      technical testing on 
                 )                    and hosts supporting the
      and       applications; and
   �	 Immediately address patch management exceptions that were identified during technical
      testing on hosts supporting the         and the       and      applications.


6.	 No findings or recommendations were noted for segregation of duties.



Cause/Effect: Due to the increased allocation of resources to the          development and
implementation project, organizational realignments, and staff turnover, resources were not
consistently available throughout the year to address all prior year issues noted above. While CBP
addressed a significant number of prior year issues, several remain unresolved. Some issues from the
prior year have already been addressed; however, the findings were reissued as these findings were not
resolved for the entire fiscal year, which is within the scope of the audit. Additionally, several
weaknesses were noted as a result of changes in DHS policy since FY 2007 that had not been
incorporated into CBP policy and implementation. By not addressing the conditions noted above, the
possibility exists for CBP that these risks will be exploited, in either a singular fashion or in
combination which might affect the availability, confidentiality or integrity of CBP’s financial data.




                                          10
 Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                U.S. Customs and Border Protection
                            Information Technology Management Letter
                                        September 30, 2008



Criteria: The Federal Information Security Management Act (FISMA) passed as part of the Electronic
Government Act of 2002, mandates that Federal entities maintain IT security programs in accordance with
OMB and NIST guidance. OMB Circular No. A-130, Management of Federal Information Resources,
and various NIST guidelines describe specific essential criteria for maintaining effective general IT
controls. In addition, OMB Circular No. A-127 prescribes policies and standards for executive
departments and agencies to follow in developing, operating, evaluating, and reporting on financial
management systems. In closing, for this year’s IT audit, we assessed CBP’s compliance with DHS 4300A
Sensitive Systems Handbook. Additionally, we assessed CBP’s implementation of CBP policy, the
Information Systems Security Policies and Procedures Handbook, version 1.3.




                                          11
 Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                 U.S. Customs and Border Protection
                             Information Technology Management Letter
                                         September 30, 2008


                             APPLICATION CONTROL FINDINGS

During FY 2007, KPMG noted that weaknesses over the processing of drawback claims exist within
the       system. Specifically,    did not support the tracking of drawback items to the line item
level. Rather,       only tracked drawbacks on a summary level. This control weakness was
identified in FYs 2003, 2004, 2005, and 2006. This control weakness was presented to CBP
management by the KPMG financial statement team as a significant control weakness and also noted
by the KPMG IT team.

Also, due to the design of      , certain controls could be overridden without supervisory approval.
For example, when a CBP entry specialist attempts to liquidate an import entry in          , the system
displays a warning message, indicating that a drawback claim had been filed against the import entry.
However, entry specialists could override the warning message without supervisory review and
process a refund without investigating pending drawback claims. The purpose of this warning
message is to ensure that both a refund and drawback are not paid on the same goods. Entry
specialists could override system edits designed to detect refunds exceeding the total duty, tax, and
fees paid on an import entry.      did not generate override reports for supervisory review.

In FY 2008, KPMG noted that CBP OIT had developed a report in                which displays all control
overrides performed at a particular port within       . KPMG determined that the report appropriately
accounts for all overrides in order to address the condition identified in previous fiscal years and
identified above. Due to the pervasiveness of this         application control weakness, the mitigating
control only partially alleviates the control weakness through implementing this report review process.
Therefore, this issue remains a material weakness specific to drawbacks when combined with the
resulting financial audit test work. This material weakness for drawbacks is reported in our
Independent Auditors’ Report, dated November 15, 2008.




                                          12
 Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                U.S. Customs and Border Protection
                            Information Technology Management Letter
                                        September 30, 2008


                    MANAGEMENT COMMENTS AND OIG RESPONSE

We obtained written comments on a draft of this report from the CBP CIO. Generally, CBP
management agreed with all of our findings and recommendations and they have developed a
remediation plan to address these findings and recommendations. We have incorporated these
comments where appropriate an included a copy of the comments in Appendix D. We have corrected
the risk rating assigned to the notice of findings and recommendation within this report. The risk
rating now corresponds with the risk rating presented in the FY 2008 Consolidated Information
Technology Management Letter.


OIG Response
We agree with the steps that CBP’s management is taking to satisfy these recommendations.




                                          13
 Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                            Appendix A 

                              FOR OFFICIAL USE ONLY
                           U.S. Customs and Border Protection
                       Information Technology Management Letter
                                   September 30, 2008




                                  APPENDIX A 


     DESCRIPTION OF KEY FINANCIAL SYSTEMS AND IT 

  INFRASTRUCTURE WITHIN THE SCOPE OF THE FY 2008 CBP 

             FINANCIAL STATEMENT AUDIT





                                         14
Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                               Appendix A 

                                     U.S. Customs and Border Protection
                                 Information Technology Management Letter
                                             September 30, 2008

            DESCRIPTION OF FINANCIAL SYSTEMS AND IT INFRASTRUCTURE

Below is a description of significant CBP financial management systems and supporting IT
infrastructure included in the scope of CBP’s FY 2008 Financial Statement Audit.


Locations of Review:       The                                in                      .
                           The                                               in                        .
                           The                                     in                     .
                           The Port of             .
                           The Port of                 .


Systems Subject to Review:
�                                                                  -      is CBP’s financial management
      system that consists of a ‘core’ system, which supports primary financial accounting and reporting
      processes, and a number of additional subsystems for specific operational and administrative
      management functions.             is a client/server-based financial management system that was
      implemented beginning in FY 2004 using a phased approach that replaced the                       -
      based financial system.

�                                               –      is a collection of business process mainframe-based
      systems used by CBP to track, control, and process all commercial goods, conveyances and private
      aircraft entering the U.S. territory for the purpose of collecting import duties, fees, and taxes owed
      to the Federal government. Key application software within                 includes systems for data
      input/output, entry and entry summary, and collection of revenue.

�                                                   –        is the commercial trade processing system
      being developed by CBP to facilitate trade while strengthening border security.          is being
      deployed in phases, with a final full deployment scheduled for FY 2012. As            is partially
      implemented now and processes a significant amount of revenue for CBP,          was included in a
      limited scope in the FY 2008 financial statement audit.

�                                                            – Used for tracking seized assets, Customs
      Forfeiture Fund, and fines and penalties. The resulting financial information interfaces with CBPs
      financial management system.




                                             15

    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit 

                                                                            Appendix B 

                               FOR OFFICIAL USE ONLY
                           U.S. Customs and Border Protection
                       Information Technology Management Letter
                                   September 30, 2008




                                  APPENDIX B 


  FY 2008 NOTICES OF IT FINDINGS AND RECOMMENDATIONS 





                                         16
Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                             Appendix B 

                                  U.S. Customs and Border Protection
                              Information Technology Management Letter
                                          September 30, 2008

Notice of Findings and Recommendation – Definition of Risk Ratings:

The Notice of Findings and Recommendations (NFR) are ranked with a risk rating of High, Medium,
and Low based upon the potential impact that each weakness could have on CBP’s information
technology (IT) general control environment and the integrity of the financial data residing on the
CBP’s financial systems, and the pervasiveness of the weakness. The risk ratings are intended only to
assist management in prioritizing corrective actions, considering the potential benefit of the corrective
action to strengthen the IT general control environment and/or the integrity of the CBP financial
statements. Correction of some higher risk findings may help mitigate the severity of lower risk
findings, and possibly function as a compensating control. In addition, analysis was conducted
collectively on all NFRs to assess connections between individual NFRs, which when joined together
could lead to a control weakness occurring with more likelihood and/or higher impact potential. The
risk ratings, used in this context, are not defined by Government Auditing Standards, issued by the
Comptroller General of the United States, or the American Institute of Certified Public Accountants
(AICPA) Professional Standards, and do not necessarily correlate to a significant deficiency, as
defined by the AICPA Standards and reported in our Independent Auditors’ Report on the CBP’s
financial statements, dated December 4, 2008.

High Risk: A control weakness that is more serious in nature affecting a broader range of financial IT
systems, or having a more significant impact on the IT general control environment and /or the
integrity of the financial statements as a whole.

Medium Risk: A control weakness that is less severe in nature, but in conjunction with other IT
general control weaknesses identified, may have a significant impact on the IT general control
environment and / or the integrity of the financial statements as a whole.

Low Risk: A control weakness minimal in impact to the IT general control environment and / or the
integrity of the financial statements.


The risk ratings included in this report are intended solely to assist management in prioritizing its
corrective actions.




                                          17
 Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                       Appendix B 

                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                 U.S. Customs and Border Protection 

                                   FY2008 Information Technology 

                       Notification of Findings and Recommendations – Detail 

                                                                                                                                 Repeat     Risk
   NFR #                       Condition                                       Recommendation                        New Issue
                                                                                                                                  Issue    Rating
               This is a system-level finding. KPMG           KPMG believes that work should continue to
               notes that significant progress has been       review and maintain a listing of active connections
               made at addressing this persistent finding.    with the     and account for each connection with
               KPMG notes that a full listing of              a documented     .
               connections to         has been developed
               and is maintained. However, KPMG also
CBP-IT-08-02   noted that there are active connections to                                                                          X      Medium
                     that still do not have a documented
                    in place. Work is progressing within
               CBP to address the missing         but as of
               testing, KPMG noted that not all
               connections had a documented         .

               This is a repeat, component-level finding.     KPMG recommends that CBP continue work on
               CBP does not maintain a centralized            the                               to ensure that all
               listing of contract personnel, including       CBP contractors are included in the database and
               employment status. Currently, CBP only         that the data for each contractor is complete and
               maintains contractor information for OIT       accurate.
               contractors. While this is a majority of
CBP-IT-08-03                                                                                                                       X      Medium
               CBP contractors, it does not include all
               CBP contractors. Additionally, as a result
               of additional test work, KPMG noted data
               validity issues in the
                       .




                                                        18
               Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                     Appendix B 

                                                  U.S. Customs and Border Protection
                                              Information Technology Management Letter
                                                          September 30, 2008

                                                                                                                               Repeat     Risk
   NFR #                       Condition                                    Recommendation                         New Issue
                                                                                                                                Issue    Rating
               This is a system-level finding. KPMG         Properly configure the application to capture
               noted the following issues in regards to     appropriate data per DHS policy. KPMG further
               Security Audit Logs for              :       recommends that a method for generating and
               � A solution has been implemented to         reviewing security audit logs be developed for
                   track and monitor security and audit                 according to CBP and DHS policy, to
                   related activity but has not been        detect potential security events.
                   operational for the entire FY 2008.
               � There is a configuration weakness for
                   capturing security and audit related
CBP-IT-08-08       activity in the                                                                                               X        Low
                                       application. The
                   configuration has changed on
                   multiple occurrences in regards to
                   tracking activity for the ‘Logon to
                   Account’ field in FY 2008.
               � There is no defined method to
                   generate and review security audit
                   logs for security violations for the
                               .

               This is a system-level finding. KPMG         Ensure that the updated script runs regularly on the
               noted that during FY 2008, CBP               system to disable user accounts after the DHS-
               implemented a script to disable accounts     specified period of inactivity.
               after thirty days of inactivity. However,
CBP-IT-08-09   KPMG noted that the script was not                                                                                X        Low
               functioning appropriately for the full
               fiscal year and was fixed during the third
               quarter of FY 2008.




                                                        19
               Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                        Appendix B 

                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                  Repeat     Risk
   NFR #                       Condition                                      Recommendation                          New Issue
                                                                                                                                   Issue    Rating
               This is a component-level finding. As          Develop procedures to regularly review and
               noted in FY 2007, KPMG notes that              monitor the workstations that have
                                        is not installed on   installed and perform inquiries to determine why
               all workstations for the majority of the       identified workstations do not have        installed.
CBP-IT-08-12                                                                                                                        X      Medium
               fiscal year. Specifically, KPMG noted
               that as of 3/31/2008, 4,751 workstations
               out of 50,282 accounted for workstations
               do not have                   installed.
               This is a component-level finding.             Work with administrators across the country to
               KPMG noted that while progress has been        ensure that new and existing workstations are
               made in accounting for all CBP                 added to a CBP                    domain to allow
CBP-IT-08-13                                                                                                                        X      Medium
               workstations, a complete and up-to-date        for all workstations to be accounted for in an
               listing of all CBP workstations is not         appropriate fashion.
               maintained.
               This is a system-level finding. KPMG           a) Develop and implement procedures that will
               noted that the       has been adjusted to         appropriately restrict the use of emergency or
               limit active temporary and/or emergency           temporary access within         and that requires
               access to 24 hours after the request.             documented supervisory approval from the
               KPMG notes, however, that the table is            ISSM confirming this access is needed.
CBP-IT-08-16   still being used and that administrator or     b) Perform regular recertifications of the                            X      Medium
               supervisory approval is not required each         emergency access table to ensure persons with
               time temporary or emergency access is             the capability to request temporary or
               activated and that ISSM approval is not           emergency access need to remain on the
               required, as required in DHS policy.              emergency access table.

               This is a system-level finding. KPMG           a) Develop formal procedures for recertifying
               noted there are currently no procedures in                   accounts and access to shared data.
               place for the completion of semi-annual        b) Perform regular recertifications of
               recertifications of             accounts.         accounts and access to shared data as required
CBP-IT-08-18                                                                                                                        X      Medium
               KPMG also notes that a recertification of         by developed procedures.
                            accounts is not performed on
               a semi-annual basis.




                                                        20
               Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                     Appendix B 

                                                  U.S. Customs and Border Protection
                                              Information Technology Management Letter
                                                          September 30, 2008

                                                                                                                               Repeat     Risk
   NFR #                       Condition                                     Recommendation                        New Issue
                                                                                                                                Issue    Rating
               This is a system level finding. KPMG          Implement the review of these logs on a periodic
               noted that when changes to a user’s           basis by an independent reviewer and that CBP
               access are performed in        , the log of   formalize these procedures in detail for the review
               these events is not regularly reviewed by     of      security audit logs.
               personnel independent from those
CBP-IT-08-21                                                                                                                     X        Low
               individuals that made the changes.
               KPMG further noted that logs from
               March 2008 through July 2008 have not
               been reviewed by the
               ISSO/Independent Reviewer.
               This is a system-level finding. KPMG          Follow DHS policy and maintain documented
               noted that out of 25 dates,                   evidence of review for security violation logs for
CBP-IT-08-26                                                                                                                     X        Low
               security violation report reviews were not    the duration outlined in DHS policy.
               provided to KPMG.
               This is a system-level finding. KPMG          a) Develop and implement procedures to restrict
               noted that authorizations are not being          access to           administrative
               maintained for personnel that have               capabilities, and
               administrator access to              .        b) Require documented authorization requests
CBP-IT-08-27                                                                                                                     X      Medium
               Additionally, KPMG noted in FY 2008              and approval for each person requiring access
               that access requests for new mainframe           to the            administrative capabilities.
                           administrator accounts are
               requested and approved verbally.
               This is a system level finding. KPMG          Continue efforts to develop a method for tracking
               noted that procedures have been               and consolidating access request forms for the
               developed to require access request forms                and continue to implement the
               for any new account created for the           procedures developed to control       account
CBP-IT-08-28                                                                                                                     X      Medium
                      However, KPMG noted that access        creation.
               request forms were not available for
               review for three accounts created by
                     administrators during FY 2008.




                                                        21
               Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                     Appendix B 

                                                  U.S. Customs and Border Protection
                                              Information Technology Management Letter
                                                          September 30, 2008

                                                                                                                               Repeat     Risk
   NFR #                      Condition                                     Recommendation                         New Issue
                                                                                                                                Issue    Rating
               This is a component-level finding.           Require managers to consistently complete the
               KPMG noted that procedures are in place      CBP-241 forms that are required as set forth in
               for the completion of the termination        CBP directives and policy.
               forms for separating government
               employees. KPMG noted, however, that
CBP-IT-08-29                                                                                                                     X      Medium
               the forms are not completed consistently,
               with employee and/or supervisor
               signature missing from 7 of the 25
               separated employees selected.

               This is a component-level finding.           Develop procedures to regularly review and
               KPMG noted that                              monitor the workstations that have antivirus
                      , the system used to enforce virus    protection installed and perform inquiries to
               protection policies, was not installed on    determine why identified workstations do not have
               all CBP workstations on                      the protection installed and updated.
                          . KPMG noted that as of
               8/11/2008, 0.25% of all workstations on
CBP-IT-08-34                                                                                                                     X        Low
                                   did not appear on the
                    listing. In addition to this, KPMG
               could not conclude on whether all CBP
               workstations have antivirus protection, as
               those workstations that are not on
                           are not communicating with

               During our technical testing,
                                                            Immediately address configuration management
               configuration management exceptions
                                                            exceptions that were identified during technical
               were identified on
CBP-IT-08-35                                                testing on                                                           X        High
                           and hosts supporting the
                                                            Controllers and hosts supporting the      and
               and      applications.
                                                            applications.
               During our technical testing, patch
                                                            Immediately address patch management exceptions
               management exceptions were identified
                                                            that were identified during technical testing on
CBP-IT-08-36   on hosts supporting the             and                                                                           X        High
                                                            hosts supporting the              and the        and
               the      and      applications.
                                                                 applications.



                                                        22
               Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                  Appendix B 

                                                  U.S. Customs and Border Protection
                                              Information Technology Management Letter
                                                          September 30, 2008

                                                                                                                             Repeat    Risk
   NFR #                       Condition                                    Recommendation                       New Issue
                                                                                                                              Issue   Rating
               This is a system-level finding. KPMG         Develop formal procedures to document the               X
               noted that formal procedures do not exist              security violation review process.
               for the security violation log review
               process. KPMG further noted that
CBP-IT-08-37   informal procedures are used by the                                                                                     Low
               network security specialist to inspect the
               security violation log for suspicious
               activity and to document the review.

               This is a system-level finding. KPMG         Develop formal procedures to document the review        X
               noted that formal procedures do not exist    process for          audit and                  .
               for the review process of            audit
               and                    . KPMG further
CBP-IT-08-38   noted that informal procedures are used                                                                                 Low
               by the             ISSOs to inspect logs
               for suspicious and unusual activity and to
               document the review.

               This is a system-level finding. KPMG         Follow DHS policy and improve password                  X
               noted that the ‘special characters’          complexity by including special characters for the
CBP-IT-08-39   requirement under password complexity             application.                                                          Low
               is not set.

               This is a system-level finding. KPMG         a) Adjust CBP-level and        -level policies to       X
               noted that access authorizations for            require the ISSM to approve the emergency
               emergency and temporary access to               and temporary access authorizations prior to
               are not approved by the ISSM.                   access being granted, and
CBP-IT-08-40                                                                                                                           Low
                                                            b) Require documented supervisory approval
                                                               from the ISSM each time a user requires
                                                               emergency access abilities.




                                                        23
               Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                       Appendix B 

                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                  Repeat    Risk
   NFR #                       Condition                                      Recommendation                          New Issue
                                                                                                                                   Issue   Rating
               This is a component-level finding.            a) Review the current directive, document an up­            X
               KPMG noted that a Customs Directive              to-date review of this document and make
               was provided as separation procedures for        modifications as needed based on the new
               contractors and the directive was dated          operating environment for CBP as part of the
               September 2001. The directive references         Department of Homeland Security, and
               Treasury policies as source                   b) Require the consistent and accurate completion
               documentation. This directive is out of          of the CBP-242 forms for all separating
               date as CBP is no longer a part of the           contractors.
               Department of Treasury.
CBP-IT-08-41                                                                                                                               Medium
               Additionally, KPMG noted that CBP-242
               contractor separation forms are not
               completed consistently for separating
               CBP contractors. Specifically, KPMG
               noted that all forms for selected separated
               contractors were completed; however, 6
               of the selected 25 separated contractors’
               forms were completed at least one month
               after the individual separated from CBP.

               This is a component-level finding.            Allocate the appropriate hardware to             to         X
               KPMG noted that the most recent               allow for the system availability to fully test the
               business continuity plan testing was          business continuity plan to ensure that            has
               incomplete. Specifically, KPMG noted          the capability to support CBP in the event that the
               that not all systems were brought online            is rendered unavailable for production.
CBP-IT-08-43                                                                                                                               Medium
               as required since sufficient hardware was
               unavailable at the recovery facility to
               fully and properly perform the continuity
               testing.




                                                        24
               Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                       Appendix B 

                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                  Repeat    Risk
   NFR #                       Condition                                       Recommendation                         New Issue
                                                                                                                                   Issue   Rating
               This is a component-level finding.            Enforce DHS’ requirement that a non-disclosure              X
               KPMG noted that non-disclosure                agreement be signed by all contractors in a
               agreements (NDAs) are not consistently        moderate and high risk level position to ensure that
CBP-IT-08-44                                                                                                                                Low
               mandated for CBP contractors.                 they are aware of their responsibilities in protecting
                                                             the confidentiality of DHS and CBP data.

               This is a system-level finding. KPMG          Properly configure            audit and                     X
               noted that the parameters for the                        to capture appropriate data for the
                                                                        system.


                               are not configured to
CBP-IT-08-45   collect appropriate data. KPMG further                                                                                       Low
               noted that three out of the
               audit and system utility logs,

                           , do not produce any data in
               the log.

               This is a system-level finding. KPMG          Maintain              audit and system utility logs         X
               noted that a total of 10 specific logs were   per DHS policy.
               not available for the following dates:
               November 12, 2007, February 22, 2008,
               and March 7, 2008. For November 12,
               2007 logs were not available for

                                                 . For
CBP-IT-08-46                                                                                                                                Low
               February 22, 2008, logs were not
               available for the              , and
                              . For March 7, 2008, logs
               were not available for
                                                  KPMG
               further noted that all mainframe audit and
               system utility logs that went digital after
               April 1, 2008 were available for review.


                                                        25
               Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                       Appendix B
                                                  U.S. Customs and Border Protection
                                              Information Technology Management Letter
                                                          September 30, 2008

                                                                                                                                  Repeat    Risk
   NFR #                      Condition                                      Recommendation                           New Issue
                                                                                                                                   Issue   Rating
               This is a component-level finding.           Require all CBP personnel (employees and                     X
               KPMG noted that CBP does not currently       contractors) sign rules of behavior prior to being
               require individuals to sign rules of         granted any system access. Additionally, for
CBP-IT-08-47   behavior prior to gaining access to CBP      personnel that already have systems access, CBP                                 Low
               information systems.                         should prioritize having these individuals sign rules 

                                                            of behavior to maintain their systems access. 


               This is a system level finding. KPMG         Develop detailed procedures that document the                X
               noted the following weaknesses for the       review process for     security audit logs that 

                     Security Audit Logs procedures         includes the documented evidence of review. 

               below:
               �	 Procedures do not define how often
                   the       security audit logs are
                   reviewed,
               � Procedures do not describe the
                   documented evidence of review
CBP-IT-08-48                                                                                                                                Low
                   process,
                   Report that is created by the ACS
                   ISSO/Independent Reviewer,
               �	 Procedures do not define the
                   sampling methodology that is used to
                   select       daily security logs, and
               �	 Procedures were not effective for the
                   entire FY 2008 (October 1, 2007 –
                   September 30, 2008).
               This is a system-level finding. KPMG         Update the        Security Administrator Handbook            X
               noted that the initial password granted to   to require a strong password that is in compliance
CBP-IT-08-49   new        accounts is not in compliance     with DHS and CBP password policies to be set as                                Medium
               with DHS requirements.                       the initial password for all new       accounts.




                                                        26
               Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                       Appendix B
                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                  Repeat    Risk
   NFR #                       Condition                                       Recommendation                         New Issue
                                                                                                                                   Issue   Rating
               This is a component-level finding. CBP          Develop a method for determining individuals who          X
               has no method of tracking completion of         have and have not completed security awareness so

               security awareness training for CBP 
           that they can actively work towards 100% 

               employees and contractors. Individuals 
        compliance with the DHS requirement that all 

               from the program team responsible for 
         individuals with systems access complete annual 

               security awareness training do not have 
       security awareness training.
CBP-IT-08-50                                                                                                                                Low
               the ability to identify those individuals 

               who have not completed security 

               awareness training. Therefore, CBP can 

               not ensure all personnel have completed 

               this training. 


               This is a system level finding. KPMG            Document         hardware maintenance                     X
               noted through inquiry with the                  procedures to ensure a consistent application of
CBP-IT-08-51         that documented hardware                  maintenance methodologies for the UNIX                                       Low
               maintenance procedures do not exist.            environment.

               This is a system-level finding. KPMG            Determine a method for appropriately applying             X
               determined that the CBP workstation             CBP and DHS policy requiring automatically-

               policy for screensavers is not 
                activated, password-protected screensavers after a 

               appropriately implemented. Specifically, 
      period of inactivity. 

               KPMG noted that the configuration of a 

CBP-IT-08-52                                                                                                                                Low
               password-protected screensaver can be

               modified by the user, allowing that user to 

               remove the password requirement and 

               disable the screensaver completely. 





                                                        27
               Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                    Appendix B
                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                               Repeat    Risk
   NFR #                       Condition                                    Recommendation                         New Issue
                                                                                                                                Issue   Rating
               This is a system-level finding. The          Perform a full review of the       Security               X
               Security Administrators Handbook is out      Administrators Handbook and update the document 

               of date and has inaccurate statements of 
   to reflect the current operating environment. This 

               CBP and DHS policies. Specifically, 
        review should be fully documented and the 

               KPMG noted: 
                                Handbook should be updated to include a change
               � Out-of-date references to US               log as evidence of the updates made.

                   Customs Service, 

               � References to out-of-date Customs
CBP-IT-08-53                                                                                                                             Low
                   (now CBP) policies and procedures
                   (1400-05a),
               � Requirement that          initial 

                   passwords are set to a weak password 

                   string, and 

               � Statement that          does not allow 

                   special characters in passwords. 


               This is a system level finding. KPMG         Document and implement policies and procedures            X
               noted the following weaknesses in            for    access control. 

               access control procedures: 

               �	 A regular (at least semi-annual) 

                   recertification of all 
    portal
                   accounts is not performed,
CBP-IT-08-54   � Formal procedures are not                                                                                              Medium
                   documented for the creation of
                   portal accounts, and
               �          is not configured to disable 

                   accounts after 45 days of inactivity 

                   on the system. 





                                                        28
               Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                Appendix B 

                                                  U.S. Customs and Border Protection
                                              Information Technology Management Letter
                                                          September 30, 2008

                                                                                                                           Repeat    Risk
   NFR #                       Condition                                    Recommendation                     New Issue
                                                                                                                            Issue   Rating
               This is a system level finding. KPMG         Limit the organization that can create                X
               noted that 2 accounts created during FY      accounts, administrator accounts and require any
               2008 did not have appropriate access         accounts be created by a single organization.
               authorization forms maintained by the
                                  administrators. KPMG
CBP-IT-08-55                                                                                                                        Medium
               further noted that multiple administrators
               on the             had accounts created
               by other groups than the
               Support Team.




                                                        29
               Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                            Appendix C 

                           U.S. Customs and Border Protection
                       Information Technology Management Letter
                                   September 30, 2008




                                  APPENDIX C 


    STATUS OF PRIOR YEAR NOTICES OF FINDINGS AND 

 RECOMMENDATIONS AND COMPARISON TO CURRENT YEAR 

     NOTICES OF FINDINGS AND RECOMMENDATIONS





                                         30
Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                    Appendix C 

                             U.S. Customs and Border Protection
                         Information Technology Management Letter
                                     September 30, 2008



   NFR No.                                                          Disposition
                              Description
                                                          Closed                  Repeat
                Override of warning in Drawback
 CBP-IT-07-01                                               X
                function without supervisory approval
                     Interconnection Security
 CBP-IT-07-02                                                                CBP-IT-08-02
                Agreements (ISAs)
 CBP-IT-07-03   Contractor Tracking Deficiencies                             CBP-IT-08-03

 CBP-IT-07-04   Labeling of Backup Media                    X

 CBP-IT-07-05   Password Configurations                     X

 CBP-IT-07-06   Session Disconnects and Locking             X

 CBP-IT-07-07   Version Control for Source Code             X

 CBP-IT-07-08               Audit Logs                                       CBP-IT-08-08

                Disabling of Inactive Accounts on
 CBP-IT-07-09                                                                CBP-IT-08-09

 CBP-IT-07-10   Physical Access Recertification             X

 CBP-IT-07-11                                                                CBP-IT-08-46

 CBP-IT-07-12                   Install                                      CBP-IT-08-12

 CBP-IT-07-13   Complete List of CBP Workstations                            CBP-IT-08-13

 CBP-IT-07-14   Backup Tape Withdrawal Logging              X

 CBP-IT-07-15        Inactive Accounts                      X

 CBP-IT-07-16   Excessive       Emergency Access                             CBP-IT-08-16

 CBP-IT-07-17   Review of                                   X

 CBP-IT-07-18   Recertification of            Accounts                       CBP-IT-08-18

 CBP-IT-07-19   Security Awareness Training                 X

 CBP-IT-07-20        Access Controls                        X

                Review of Changes to Security Profiles
 CBP-IT-07-21                                                                CBP-IT-08-21
                in
                OIT Documentation Not Formally
 CBP-IT-07-22                                               X
                Approved


                                         31
Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                       Appendix C
                               U.S. Customs and Border Protection
                           Information Technology Management Letter
                                       September 30, 2008

   NFR No.                                                             Disposition
                                Description
                                                             Closed                  Repeat
                  Emergency Change Executive
 CBP-IT-07-23                                                  X
                  Approvals for

 CBP-IT-07-24          Re-recertification Process              X

                  No formal designation of ISSO for
 CBP-IT-07-25                                                  X

                  Review of            Security
 CBP-IT-07-26                                                                   CBP-IT-08-26
                  Violation Logs
                             Administrator Access
 CBP-IT-07-27                                                                   CBP-IT-08-27
                  Authorization Weaknesses
                             Access Policies and
 CBP-IT-07-28                                                                   CBP-IT-08-28
                  Procedures
                  Completion of CF-241 Forms for
 CBP-IT-07-29                                                                   CBP-IT-08-29
                  Terminated Employees
                  Removal of Terminated Employees
 CBP-IT-07-30                                                  X
                  from

 CBP-IT-07-31          High Risk Combinations                  X

 CBP-IT-07-32          Change Documentation                    X

 CBP-IT-07-33          Change Documentation                    X

 CBP-IT-07-34     Installation of Anti-Virus Protection                         CBP-IT-08-34

 CBP-IT-07-35     Configuration Management                                      CBP-IT-08-35

 CBP-IT-07-36     Patch Management                                              CBP-IT-08-36
    FY 2007 Issued NFRs                 FY2007 Closed NFRs            FY2007 Reissued NFRs
             36                                     19                         17




                                         32
Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                            Appendix D 

                           U.S. Customs and Border Protection
                       Information Technology Management Letter
                                   September 30, 2008




                                  APPENDIX D 



    MANAGEMENT RESPONSE TO DRAFT U.S. CUSTOMS AND 

                BORDER PROTECTION 

                        IT MANAGEMENT LETTER





                                         33
Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                               Appendix D 

                           U.S. Customs and Border Protection
                       Information Technology Management Letter
                                   September 30, 2008




                                         34
Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                               Appendix D 

                           U.S. Customs and Border Protection
                       Information Technology Management Letter
                                   September 30, 2008




                                         35
Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                       Appendix D 

                                                     U.S. Customs and Border Protection
                                                 Information Technology Management Letter
                                                             September 30, 2008


                  Status of Corrective Action Plans for FY 2008 Financial Audit NFRs issued to CBP OIT


                                                                                                                                            Status/
                     NFR             NFR                                                                      Planned                     Scheduled
    Risk Rating                                         Detailed Weakness/ Recommendation
                    Number 1         Title                                                                Corrective Actions              Completion
                                                                                                                                             Date
Medium
           CBP-IT-08­                        Weakness:                                       CBP will continue to verify the       On Track-
                  02           Interconnection      Without approved interconnection security       number of entities that connect      Completion
                               Security             agreements (ISA) for all system                 to       . For those connections     Date 6/15/09
                               Agreements           interconnections, connecting entities could     that do not have documented
                                                    compromise                                      ISA agreements, ISAs will be
                                                                    data and system integrity and   created and reviewed by the
                                                    create security vulnerabilities and risks for   Office of Information and
                                                    US Customs and Border Protection (CBP).         Technology and the Security
                                                    Recommendation:                                 and Technology Policy Branch
                                                    CBP ensure that each active connection          allowing for an accurate list of
                                                    with       should be accounted for and have     all entities that connect to
                                                    documented ISAs.                                     .




1
  For the 2008 audit, OIG/KPMG Auditors used the following numbering system for NFRs: Repeat NFRs were assigned the same numbers used
last year. NFRs numbered 1 through 36 are repeats and any skipped numbers were not reissued in 2008. NFRs numbered 37 and higher are new
in 2008.

                                                                36
                       Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                  Appendix D
                                                 U.S. Customs and Border Protection
                                             Information Technology Management Letter
                                                         September 30, 2008

                                                                                                                                       Status/
                 NFR              NFR                                                                    Planned                     Scheduled
 Risk Rating                                       Detailed Weakness/ Recommendation
                Number 1          Title                                                              Corrective Actions              Completion
                                                                                                                                        Date
High however   CBP-IT-08­   Listing of          Weakness:                                      The                                   Completed-
Consolidated   03           Employed and        By not maintaining an updated and timely                has been developed            11/12/08
statement                   Terminated          list of US Customs and Border Protection       and populated with data on
said Medium                 Contractors         (CBP) contractors, risks are created           contractors supporting CBP.
                                                concerning access to the financial systems,    Building passes are only being
                                                especially when the contractor leaves CBP.     issued if the data on the
                                                Recommendation:                                contractor is in the system. A
                                                CBP ensure that the                            directive has been developed
                                                                remains updated and includes   finalized and implemented
                                                all contractors. Also, all information         requiring all CBP offices to
                                                regarding contractors is accurate and          enter the data on their
                                                complete.                                      contractors.



Medium         CBP-IT-08­   Completion and      Weakness:                                      CBP has ensured that the              Completed-
however        08           Review of           Without correct configuration of the           configuration change process           10/01/08
Consolidated                Security Audit      application to capture appropriate data and    implemented within the
statement                   Logs for            the ability to review security audit logs,
said Low                                        potential security violations may go                       application and
                                                undetected.                                    configuration changes have
                                                Recommendation:                                been completed to capture all
                                                CBP properly configure the application to      security events. CBP
                                                capture appropriate data and a process for     implemented a process that
                                                generating and reviewing security audit logs   ensures the effective automated
                                                to be developed for                            audit log process to review
                                                                       that will detect        security logs in order to detect
                                                potential security events.                     potential security events.




                                                             37
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                   Appendix D
                                                  U.S. Customs and Border Protection
                                              Information Technology Management Letter
                                                          September 30, 2008

                                                                                                                                        Status/
                 NFR              NFR                                                                       Planned                   Scheduled
 Risk Rating                                         Detailed Weakness/ Recommendation
                Number 1          Title                                                                 Corrective Actions            Completion
                                                                                                                                         Date
Low            CBP-IT-08­   Accounts are         Weakness:                                        CBP updated the script to           Completed-
               09           Not Disabled         Inactive accounts that are not suspended in      include all users accounts           10/15/08
                            After an             a timely manner increase the risk that any       within the                 .
                            Appropriate          individual may inappropriately access CBP        Corrected script was executed
                            Period of Time       systems.                                         on schedule and results
                            for the              Recommendation:                                  confirmed.
                                                 CBP ensure updated scripts runs regularly
                                                 on the system to disable user accounts after
                                                 the DHS-specified period of inactivity.
               CBP-IT-08­   Installation of      Weakness:                                        CBP is working to ensure that     On Track-
Medium         12                                Without                     installed on         new and existing workstations     Completion
                            on CBP               workstations, there is no reasonable             are added to the CBP              Date 2/28/09
                            Workstations         assurance that patched and security fixes are              domain to allow all
                                                 being appropriately applied to all CBP           workstations to be accounted
                                                 workstations.                                    for and updated. CBP will also
                                                 Recommendation:                                  implement a process to ensure
                                                 CBP develop procedures to regularly review       that                 is on all
                                                 and monitor the workstations that have           workstations.
                                                                   installed and perform
                                                 inquiries to determine why identified
                                                 workstations do not have            installed.




                                                             38
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                Appendix D 

                                                 U.S. Customs and Border Protection
                                             Information Technology Management Letter
                                                         September 30, 2008

                                                                                                                                     Status/
                 NFR              NFR                                                                     Planned                  Scheduled
 Risk Rating                                        Detailed Weakness/ Recommendation
                Number 1          Title                                                               Corrective Actions           Completion
                                                                                                                                      Date
Medium         CBP-IT-08­   Incomplete          Weakness:                                       CBP is working to ensure that      On Track-
               13           Listing of CBP      Without the assurance of a list that includes   new and existing workstations     Completion
                            Workstations        all workstations connecting to CBP              are added to the CBP              Date 2/28/09
                                                networks, CBP does not have the                            domain which will
                                                confidence that security patches and updates    allow all workstations to be
                                                are being appropriately applies to all CBP      accounted for and updated.
                                                workstations. This could lead to                CBP is implementing a process
                                                vulnerabilities be exploited and also lacks     to ensure that
                                                the ability to ensure group policies are        are on all workstations.
                                                implemented on all workstations.
                                                Recommendation:
                                                CBP work with administrators across the
                                                country to ensure that new and existing
                                                workstations are added to a CBP
                                                           domain to allow for all
                                                workstations to be accounted for.




                                                             39
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                Appendix D
                                                U.S. Customs and Border Protection
                                            Information Technology Management Letter
                                                        September 30, 2008

                                                                                                                                     Status/
                 NFR              NFR                                                                   Planned                    Scheduled
 Risk Rating                                      Detailed Weakness/ Recommendation
                Number 1          Title                                                             Corrective Actions             Completion
                                                                                                                                      Date
High however   CBP-IT-08­   Excessive          Weakness:                                      CBP has notified the programs        On Track-
Consolidated   16           Emergency and      Without consistent emergency access            that the CISO must approve list     Completion
statement                   Temporary          authorization procedures, excessive            of supervisors who can              Date 4/30/09
said                        Access in          emergency access to sensitive data             approve emergency access as
Medium                                         operations with                                well as approving the current
                                                               may exist. Without proper      list of individuals with access
                                               authorization each time a user requires        and their profiles. For all CFO
                                               emergency access, the user could gain          Designated Financial Systems
                                               access to data that they do not need and may   the CISO was provided lists of
                                               be able to compromise the integrity of the     all emergency access profiles,
                                               data and disrupt processing.                   all developers who have
                                               Recommendation:                                emergency access, and all
                                               A. CBP develop and implement procedures        supervisors authorized to
                                               that will appropriately restrict the use of    approve emergency access.
                                               emergency and temporary access within          The CISO sent out delegation
                                                     and that requires documented             letters to the owners of the
                                               supervisory approval from Information          financial systems delegating
                                               Systems Security Manager (ISSM)                authority to specific
                                               confirming this access is needed.              supervisors so they can
                                               B. CBP perform regular recertifications of     approve emergency access
                                               the emergency access table and ensure only     requests for all CFO
                                               certain users are included on the table and    Designated Financial Systems
                                               have the capability to request emergency       for 24 hours at a time, no more
                                               access.                                        than 4 times a month per
                                                                                              person, for one year. The CISO
                                                                                              will re-certify the list of
                                                                                              authorized supervisors every
                                                                                              six months.



                                                             40
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                     Appendix D 

                                                  U.S. Customs and Border Protection
                                              Information Technology Management Letter
                                                          September 30, 2008

                                                                                                                                          Status/
                 NFR              NFR                                                                      Planned                      Scheduled
 Risk Rating                                         Detailed Weakness/ Recommendation
                Number 1          Title                                                                Corrective Actions               Completion
                                                                                                                                           Date
Medium         CBP-IT-08­   Recertification      Weakness:                                       CBP is implementing the use            On Track-
               18           of                   Not recertifying accounts can lead to           of scripts to disable                 Completion
                            Accounts             accounts of terminated employee and                  accounts that have not           Date 9/30/09
                                                 contractors remaining active on the system.     been used in 30 days. CBP is
                                                 This can lead to unauthorized access to         creating a listing of users
                                                 programs using accounts that should no          produced by                     .
                                                 longer have access to the system. Also,         This list will be reduced by
                                                 without reviewing access to the shared data     those users validated as
                                                 and drives, the risk exists that accounts can   legitimate by the
                                                 maintain access to shared data to which they    account re-validation effort. It
                                                 no longer require access.                       will be assumed that a user
                                                 Recommendation:                                 with a validated need to access
                                                 A. CBP develop formal procedures for            his/her              account, has
                                                 recertifying                                    also been validated to utilize
                                                                                accounts and     the very network needed to
                                                 access to shared data.                          obtain              connectivity.
                                                 B. CBP perform regular re-certifications of     Each remaining user will have
                                                             accounts and access to shared       their supervisor identified via a
                                                 data as required by developed procedures.       HR application. Individual
                                                                                                 supervisors will be contacted
                                                                                                 via e-mail and asked to verify
                                                                                                 the employees need to retain an
                                                                                                 active        account.




                                                             41
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                   Appendix D 

                                                    U.S. Customs and Border Protection
                                                Information Technology Management Letter
                                                            September 30, 2008

                                                                                                                                        Status/
                 NFR              NFR                                                                       Planned                   Scheduled
 Risk Rating                                           Detailed Weakness/ Recommendation
                Number 1          Title                                                                 Corrective Actions            Completion
                                                                                                                                         Date
Medium         CBP-IT-08­   Review of              Weakness:                                      An       Information Systems        On Track-
however        21           changes to             Without independent review of security         Security Officer/independent       Completion
Consolidated                security profiles      level changes for                              reviewer is reviewing the logs     Date 6/15/09
statement                   in                                     users, users may be granted    on a periodic basis. The logs
said                                               additional access they do not need for their   and evidence of review are to
Low                                                job function. In addition, without             be documented monthly and
                                                   independent review of these logs by            maintained for seven years.
                                                   management, security administrators have
                                                   the ability to make changes to user’s access
                                                   without proper approvals.
                                                   Recommendation:
                                                   CBP review of these logs should be
                                                   implemented on a periodic basis by an
                                                   independent reviewer and that CBP
                                                   formalize these procedures in detail for the
                                                   review of       security audit logs.




                                                             42
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                  Appendix D 

                                                 U.S. Customs and Border Protection
                                             Information Technology Management Letter
                                                         September 30, 2008

                                                                                                                                       Status/
                 NFR              NFR                                                                      Planned                   Scheduled
 Risk Rating                                        Detailed Weakness/ Recommendation
                Number 1          Title                                                                Corrective Actions            Completion
                                                                                                                                        Date
Medium         CBP-IT-08­   Review of           Weakness:                                        CBP has developed an                Completed-
however        26                               Without maintaining documented evidence          automated electronic system to       9/17/08
Consolidated                Security            of review for security violation logs per        facilitate the review of the
statement                   Violation Logs      DHS policy, potential access violations          security violation logs and
said Low                                        could go undetected and these access             documentation by the security
                                                violations could continue. During a disaster     administrators.
                                                or interruption of service, the restoration of
                                                the financial system without pertinent audit
                                                information would be challenging.
                                                Recommendation:
                                                CBP follow DHS policy and maintain
                                                documented evidence of review for security
                                                violation logs for the duration outlined in
                                                DHS policy.




                                                             43
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                  Appendix D
                                                U.S. Customs and Border Protection
                                            Information Technology Management Letter
                                                        September 30, 2008

                                                                                                                                       Status/
                 NFR              NFR                                                                    Planned                     Scheduled
 Risk Rating                                       Detailed Weakness/ Recommendation
                Number 1          Title                                                              Corrective Actions              Completion
                                                                                                                                        Date
High however   CBP-IT-08­                      Weakness:
                                      a. CBP is establishing a project      On Track-
Consolidated   27           Administrator      Without proper authorization granted, the       plan to implement an                 Completion
statement                   Access             risk exists that personnel may gain access to   appropriate solution for proper      Date 2/15/09
said                        Authorization                   administrative capabilities        management of the CBP
Medium                      Weaknesses         without the need to have that access. This                   administrative
                                               could lead to a compromise of data and          access. This will include the 

                                               system functionality. 
                         possibility of purchasing
                                               Recommendation:                                         software. The Vendor’s
                                               A.CBP develop and implement procedures          recommendation may or may

                                               to restrict access to 
                         not effect the resources 

                                               administrative capabilities 
                   requirement. b. CBP will also
                                               B. CBP require documented authorization         develop and implement 

                                               request and approval for each person 
          procedures that appropriately 

                                               requiring access to the 
                       restrict access to the 

                                               administrative capabilities.
                   administrative capabilities. As
                                                                                               well as update the mandatory
                                                                                               recertification process to
                                                                                               indicate user is a security
                                                                                               administrator.




                                                             44
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                  Appendix D 

                                                U.S. Customs and Border Protection
                                            Information Technology Management Letter
                                                        September 30, 2008

                                                                                                                                       Status/
                 NFR              NFR                                                                    Planned                     Scheduled
 Risk Rating                                       Detailed Weakness/ Recommendation
                Number 1          Title                                                              Corrective Actions              Completion
                                                                                                                                        Date
Medium         CBP-IT-08­   Completion of      Weakness:                                       Access authorization policies         On Track-
               28                              Without documented authorization, it is         and procedures were developed        Completion
                            Access             possible that users will obtain access to the   during FY 2008 but were not          Date 3/30/09
                            Authorization                                                      fully implemented. The
                            Forms                              , as well as shared drives      policies and procedures will
                                               and folders, without proper authorization.      be fully implemented on or
                                               Recommendation:                                 about 3/30/09 .The procedure
                                               CBP continue efforts to develop a method        requires completion of a
                                               for tracking and consolidating access                    Form for all
                                               request forms for the             and                  . The Government
                                               continue to implement the procedures            Supervisor must complete and
                                               developed to control        account creation.   sign the form in order to obtain
                                                                                               new        accounts or change
                                                                                               an active account. The
                                                                                               completed forms will be
                                                                                               retained in a database which
                                                                                               can be audited.




                                                             45
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                              Appendix D 

                                                U.S. Customs and Border Protection
                                            Information Technology Management Letter
                                                        September 30, 2008

                                                                                                                                   Status/
                 NFR              NFR                                                                  Planned                   Scheduled
 Risk Rating                                       Detailed Weakness/ Recommendation
                Number 1          Title                                                            Corrective Actions            Completion
                                                                                                                                    Date
               CBP-IT-08­   Completion of      Weakness:                                     CBP/OF reviewed and revised              The
Medium         29           Government         Without following the standard procedures     the CBP Directive No. 51715­      Responsibility
                            Employee           for terminating employees from CBP, it is     005A, “Separation Clearance              for
                            Separation         possible that                  will not       procedures and CBP Form 242,      remediation of
                            Forms              receive notification that an employee’s       and disseminated CBP wide.         this finding is
                                               system access should be removed, leaving      CBP/OF is conducting semi­            Office of
                                               accounts active that once belonged to         annual internal reviews to            Finance
                                               terminated employees.                         ensure CBP Form is properly
                                               Recommendation:                               completed for all separated
                                               CBP require managers to consistently          employees. The first review of
                                               complete the CBP-241 forms that are           the procedures was conducted
                                               required as set forth in the CBP directives   from October 2007 to April
                                               and policy.                                   2008. The August 19, 2008
                                                                                             report was provided January 7,
                                                                                             2009 and it was determined
                                                                                             that compliance with the
                                                                                             separation clearance is not
                                                                                             being achieved. CBP/OF has
                                                                                             not determined what corrective
                                                                                             actions will be taken yet.




                                                             46
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                Appendix D
                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                     Status/
                 NFR              NFR                                                                    Planned                   Scheduled
 Risk Rating                                         Detailed Weakness/ Recommendation
                Number 1          Title                                                              Corrective Actions            Completion
                                                                                                                                      Date
Medium         CBP-IT-08­   Installation of       Weakness:                                    CBP is working to ensure that       On Track-
however,       34           Virus Protection      Without up-to-date antivirus protection on   new and existing workstations      Completion
Consolidated                on CBP                all CBP workstations, the risk exists that   are added to the CBP               Date 2/28/09
statement                   Workstations          malicious code can be introduced to the                 domain which will
said Low                                          network and affect a portion of the CBP-     allow all workstations to be
                                                  maintained workstations.                     accounted for and updated in
                                                  Recommendation:                              the appropriate manner. CBP is
                                                  CBP develop procedures to regularly review   implementing a process to
                                                  and monitor the workstations that have       ensure that Tivoli Endpoints
                                                  antivirus protection installed and perform   are on all workstations.
                                                  inquiries to determine why identified
                                                  workstations do not have the protection
                                                  installed and updated.
High           CBP-IT-08­   Configuration         Weakness:                                    CBP is investigating processes      On Track-
               35.1         management            Weak passwords may allow a remote user       to ensure that all database         Completion
                            weaknesses on         to gain unauthorized access on these         accounts have strong                Date 4/1/09
                            the      and          databases.                                   passwords. One such process
                                 application      Recommendation:                              is that for the weak local
                            servers and           CBP ensure that all database accounts have   account that used        has
                                                  strong passwords.                            been changed to a more
                                          )                                                    standardize password that
                                                                                               meets security standards.




                                                             47
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                   Appendix D 

                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                        Status/
                 NFR              NFR                                                                     Planned                     Scheduled
 Risk Rating                                         Detailed Weakness/ Recommendation
                Number 1          Title                                                               Corrective Actions              Completion
                                                                                                                                         Date
High           CBP-IT-08­   Configuration         Weakness:                                    CBP formed a working group             On Track-
               35.2         management            Weak passwords may allow remote user to      to determine what the process          Completion
                            weaknesses on         gain unauthorized access on these            will be to change the current         Date 12/20/09
                            the      and          databases.                                   password requirements. CBP
                                 application      Recommendation:                              submit a                     that
                            servers and           CBP ensure that all database accounts have   will notify all applications
                                                  strong passwords.                            utilizing                    that
                                                                                               passwords will need to be
                                                                                               strengthened. System owner
                                                                                               will provide written details of
                                                                                               appliance and its use for demo
                                                                                               purposes. If it is determined
                                                                                               that demo equipment follows
                                                                                               the DHS
                                                                                                                , system owner
                                                                                               will update to <strong>
                                                                                               password.
                                                                                                                  – This server
                                                                                               has been decommissioned.
High           CBP-IT-08­   Configuration         Weakness:                                    CBP changed the                        Completed-
               35.3         management            Compromised local administrator              patching for the local                  11/18/08
                            weaknesses on         passwords allow remote users to gain         administrator account.
                            the      and          unauthorized access on the host.
                                 application      Recommendation:
                            servers and           CBP ensure that all local administrator
                                                  account passwords adhere to DHS password
                                          )       policy.




                                                             48
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                      Appendix D 

                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                           Status/
                 NFR              NFR                                                                          Planned                   Scheduled
 Risk Rating                                          Detailed Weakness/ Recommendation
                Number 1          Title                                                                    Corrective Actions            Completion
                                                                                                                                            Date
High           CBP-IT-08­   Configuration         Weakness:                                          CBP has changed the                 Completed
               35.4         management                   is installed with a set of well-known       passwords as follow: For             1/22/09
                            weaknesses on         usernames and passwords. If the default                            the passwords
                            the      and          username and password has not been                 was changed on
                                 application      changed, an attacker can easily break into a                   and for
                            servers and           database.
                                                  Recommendation:
                                                  CBP change any default usernames and
                                                  passwords.
High           CBP-IT-08­   Configuration         Weakness:                                          CBP non-concurred with the          Completed-
               35.5         management                   provides a method of calling                finding. Item#5 which deals          12/23/08
                            weaknesses on         function outside the database by creating          with           , CBP is now
                            the      and          external procedure servers This feature is         using                        ,
                                 application      very useful and extends            s               and is requesting a waiver..
                            servers and           functionality greatly, but if access to send
                                                  commands to these external procedure
                                                  servers is not properly restricted,
                                                  anonymous users can gain control of the
                                                  operating system.
                                                  Recommendations:
                                                  CBP configure the listener used by the
                                                           to only accept connections from the
                                                  database by setting the
                                                  parameter in the                file to restrict
                                                  access to an Oracle database based on
                                                  network address.




                                                             49
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                     Appendix D 

                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                          Status/
                 NFR              NFR                                                                        Planned                    Scheduled
 Risk Rating                                          Detailed Weakness/ Recommendation
                Number 1          Title                                                                  Corrective Actions             Completion
                                                                                                                                           Date
High           CBP-IT-08­   Configuration         Weakness:                                       CBP have researched this              On Track-
               35.6         management                    provides a facility to record the       discrepancy with the vendor          Completion
                            weaknesses on         actions taken in the database. Recording                   does not agree with       Date 2/28/09
                            the      and          these actions is necessary in order to detect   the recommendation. The cost,
                                 application      when an attack occurs and to be able to         storage and performance issues
                            servers and           analyze the attack after the fact. To enable    would be greater risks to the
                                                  this feature you must set the                   users than acceptance of this
                                                  parameter in the              .                 risk. CBP will submit a Risk
                                                  Recommendation:                                 Acceptance Form and waiver
                                                  CBP enable auditing.                            for approval.

                                                                                                  CBP has decided to accept the
                                                                                                  risk because the risk identified
                                                                                                  is already being addressed in
                                                                                                  an alternative manner by the
                                                                                                        system.
High           CBP-IT-08­   Configuration         Weakness:                                       CBP implemented SAP                   Completed
               35.7         management            The                       parameter allows      recommendation into                    1/22/09
                            weaknesses on         the database to trust that the client has
                            the      and          properly authenticated the user and is who
                                 application      he/she claims to be. If an attacker can
                            servers and           identify a user that is configured to use
                                                  operating system authentication, the
                                                  attacker will be able to connect to the
                                                  account without using providing
                                                  authentication credentials.
                                                  Recommendation:
                                                  CBP disable client-side authentication.



                                                             50
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                     Appendix D 

                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                          Status/
                 NFR              NFR                                                                       Planned                     Scheduled
 Risk Rating                                          Detailed Weakness/ Recommendation
                Number 1          Title                                                                 Corrective Actions              Completion
                                                                                                                                           Date
High           CBP-IT-08­   Configuration         Weakness:                                       Upon further research with the        On Track-
               35.8         management                   provides a facility to record the        vendor                 does not      Completion
                            weaknesses on         actions taken in the database. Recording        concur with the                      Date 2/28/09
                            the      and          these actions is necessary in order to detect   recommendation.
                                 application      when an attack occurs and to be able to              recommends that this
                            servers and           analyze the attack after the fact. Recording    resolution not be implemented
                                                  when and from where users are connecting        as cost, storage, and
                                          )       or attempting to connect is on the most         performance issues would be
                                                  important features in auditing.                 higher risks to the users than
                                                  Recommendation:                                 the acceptance of this risk.
                                                  CBP configure the database to audit both
                                                  successful and failed connections for all       CBP has decided to accept the
                                                  database users.                                 risk because the risk identified
                                                                                                  by the auditor is already being
                                                                                                  addressed in an alternative
                                                                                                  manner by the         system.
                                                                                                  Connection is controlled by the
                                                                                                        application and       has
                                                                                                  extensive functions for logging
                                                                                                  user activities and changes to
                                                                                                  the system, and users must
                                                                                                  connect through the
                                                                                                  system to access any data in its
                                                                                                          database. CBP will
                                                                                                  submit a Risk Acceptance
                                                                                                  Form and waiver for approval.




                                                             51
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                    Appendix D 

                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                         Status/
                 NFR              NFR                                                                       Planned                    Scheduled
 Risk Rating                                          Detailed Weakness/ Recommendation
                Number 1          Title                                                                 Corrective Actions             Completion
                                                                                                                                          Date
High           CBP-IT-08­   Configuration         Weakness:                                       CBP initially concurred with         On Track-
               35.9         management            The                         parameter defines   the recommendation, however         Completion
                            weaknesses on         the maximum lifetime for passwords.             after further researching the       Date 2/28/09
                            the      and          Changing passwords on a regular basis           issue with the vendor, CBP
                                 application      alleviates the threat that passwords have       discovered that the proposed
                            servers and           been compromised. If this parameter is set      recommendation does not
                                                  too high or not set at all, old passwords may   follow the vendor standards.
                                                  be compromised and remain in use for an
                                                  extended period of time.                        CBP has decided to accept the
                                                  Recommendation:                                 risked identified by the
                                                  CBP set password life time parameter.           Auditor, and will submit a Risk
                                                                                                  Acceptance Form and waiver
                                                                                                  for approval.
High           CBP-IT-08­   Configuration         Weakness:                                       For the                              On Track-
               35.10        management            Passwords need to be changed frequently,                         the                Completion
                            weaknesses on         as there are many ways to have a password       recommended account changes         Date 3/31/09
                            the      and          stolen, sniffed and viewed.                     will be implemented into
                                 application      Recommendation:                                 production by March 31st,
                            servers and           CBP ensure that passwords are reset as          2009.
                                                  mandated by DHS policy.




                                                             52
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                   Appendix D 

                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                        Status/
                 NFR              NFR                                                                        Planned                  Scheduled
 Risk Rating                                          Detailed Weakness/ Recommendation
                Number 1          Title                                                                  Corrective Actions           Completion
                                                                                                                                         Date
High           CBP-IT-08­   Configuration         Weakness:                                        CBP implemented Change             Completed- 

               35.11        management            Obsolete virus definition files may allow an     Request on 10/14/2008 to            11/17/08 

                            weaknesses on         infection of the remote host by a virus or a     enable automated
                            the      and          worm.                                            Signature updates.
                                 application      Recommendation:                                  automatically connects to a
                            servers and           CBP ensure that all virus definition files are   CBP server hosting the latest
                                                  up-to-date.                                          signatures and applies
                                                                                                   them to the appropriate
                                                                                                   systems.




                                                             53
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                 Appendix D
                                               U.S. Customs and Border Protection
                                           Information Technology Management Letter
                                                       September 30, 2008

                                                                                                                                      Status/
                 NFR              NFR                                                                   Planned                     Scheduled
 Risk Rating                                      Detailed Weakness/ Recommendation
                Number 1          Title                                                             Corrective Actions              Completion
                                                                                                                                       Date
High           CBP-IT-08­   Configuration      Weakness:                                     Neither system addressed in            Completed- 

               35.12        management                                      is no longer     this finding is running                 12/18/08 

                            weaknesses on      supported by             therefore is                          Systems are
                            the      and       vulnerable to multiple remotely exploitable   running an embedded
                                 application   vulnerabilities which may allow an attacker   operating system distributed by
                            servers and        or a worm to take the complete control of            on their storage
                            General Support    the remote system (                           appliance. As such these
                            Systems (GSS)                                                    systems are not susceptible to
                                               Recommendation:
                              Windows vulnerabilities
                                               CBP upgrade operating system. 


                                                                                             Two                  were
                                                                                             reported for the
                                                                                                                       in
                                                                                             Aug 2005 (data encompasses
                                                                                             2003 to 2008). The
                                                                                                            reportedly affect
                                                                                             versions                   prior
                                                                                             to versions                     ,
                                                                                             and          . CBP’s devices
                                                                                             are                     thus
                                                                                             not susceptible.




                                                             54
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                Appendix D 

                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                     Status/
                 NFR              NFR                                                                   Planned                    Scheduled
 Risk Rating                                         Detailed Weakness/ Recommendation
                Number 1          Title                                                             Corrective Actions             Completion
                                                                                                                                      Date
High           CBP-IT-08­   Configuration         Weakness:                                   The             account is           On Track-
               35.13        management            Obsolete passwords increase the potential   required for mainframe access       Completion
                            weaknesses on         for unauthorized access on the host.        to                                  Date 5/30/09
                            the      and          Recommendation:                             to      Treasury Files for
                                 application      CBP ensure all password parameters meet     processing. This process will
                            servers and           DHS requirements.                           be changing to use
                                                                                                              in early 2009
                                                                                              and the             account
                                                                                              will be eliminated. In the
                                                                                              interim CBP is testing a
                                                                                              method for locking down the
                                                                                                          account so that
                                                                                              only the             can log in
                                                                                              with this account and only
                                                                                              perform the       process. CBP
                                                                                              is developing and
                                                                                              implementing a policy for
                                                                                              changing root and
                                                                                              accounts password. Request
                                                                                              waiver for user “        ” from
                                                                                              DHS. Implement script
                                                                                              developed to change passwords
                                                                                              for         account on all
                                                                                              servers.




                                                             55
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                     Appendix D 

                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                          Status/
                 NFR              NFR                                                                       Planned                     Scheduled
 Risk Rating                                          Detailed Weakness/ Recommendation
                Number 1          Title                                                                 Corrective Actions              Completion
                                                                                                                                           Date
High           CBP-IT-08­   Patch                 Weakness:                                       CBP upgrade to          version       On Track-
               36.1         management            Multiple high risk vulnerabilities have been                       and apply          Completion
                            weaknesses on         addressed in the released                                      Patch in              Date 12/31/09
                            the      and                                . Exploitation of these                           on
                                 application      vulnerabilities will allow an attacker to       1/18/09. For
                            servers and           completely compromise the database.                            , no action
                                                  Recommendation:                                 required as       is phasing out
                                                  CBP apply current                               the application and no longer
                                                                                                  support upgrades, including
                                                                                                         Upgrades and Patches.
                                                                                                  CBP is retiring this application
                                                                                                  by 12/31/2009.
High           CBP-IT-08­   Patch                 Weakness:                                             now has an automated            Completed-
               36.2         management            An attacker may use these vulnerabilities to    process for patch updates based        11/21/08
                            weaknesses on         execute arbitrary commands on the remote        on                     Update
                            the      and          host.                                           Services           Updates are
                                 application      Recommendation:                                 automatically pulled from a
                            servers and           CBP apply vendor supplied patches.              CBP server as they become
                                                                                                  available and applied to all
                                                                                                                  systems.




                                                             56
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                     Appendix D 

                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                          Status/
                 NFR              NFR                                                                        Planned                    Scheduled
 Risk Rating                                          Detailed Weakness/ Recommendation
                Number 1          Title                                                                  Corrective Actions             Completion
                                                                                                                                           Date
High           CBP-IT-08­   Patch                 Weakness:                                        For
               36.3         management            Allowing database users to access operating      revoking execute of SYS              Completed
                            weaknesses on         system files may result in security being                        from the              1/22/09
                            the      and          breached. By default, permissions to             PUBLIC Role is in Production
                                 application      execute this function are granted to the
                            servers and           public role, allowing all users to execute the
                                                  functions of in the package.
                                                  Recommendations:
                                                  CBP revoke the privilege to execute the
                                                  sys.utl_file package from the public role.
                                                  Grant privileges to execute the package only
                                                  to those specific accounts that need to
                                                  execute the package.
High           CBP-IT-08­   Patch                 Weakness:                                        Upgrade to the         latest        On Track-
               36.5         management            An attacker may be able to execute arbitrary     version.                             Completion
                            weaknesses on         code using malicious      file.                                                      Date 12/31/09
                            the      and          Recommendation:                                                , Adobe Reader
                                 application      CBP upgrade to Adobe Reader 6.0.6/ 7.0.9/        will be upgraded. For
                            servers and           8.0 or later.
                                                                                                                 and

                                                                                                                        is phasing
                                                                                                   out the application and no
                                                                                                   longer support upgrades,
                                                                                                   including         Reader. The
                                                                                                   application will not operate if
                                                                                                           Reader is upgraded.




                                                             57
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                  Appendix D 

                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                       Status/
                 NFR              NFR                                                                      Planned                   Scheduled
 Risk Rating                                         Detailed Weakness/ Recommendation
                Number 1          Title                                                                Corrective Actions            Completion
                                                                                                                                        Date
High           CBP-IT-08­   Patch                 Weakness:                                      Upgrade to the                       Completed
               36.6         management            An attacker may be able to execute arbitrary                                         2/18/09
                            weaknesses on         code on the host.
                            the      and          Recommendation:                                              and the
                               P application      CBP update WinZip software.
                            servers and                                                                                   will
                                                                                                 be upgraded by 2/15/09. For
                                                                                                                wil be upgraded
                                                                                                 on the Production

                                                                                                               by 2/15/09.
High           CBP-IT-08­   Patch                 Weakness:                                      CBP removed                         Completed-
               36.7         management            An attacker may be able to execute arbitrary   Software from all identified         11/17/08
                            weaknesses on         code on the host. Successful exploitation      workstations.
                            the      and          allows an attacker to execute arbitrary code
                                 application      on the affected host subject to the user’s
                            servers and           privilege.
                                                  Recommendation:
                                                  CBP update             software.




                                                             58
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                    Appendix D 

                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                         Status/
                 NFR              NFR                                                                       Planned                    Scheduled
 Risk Rating                                          Detailed Weakness/ Recommendation
                Number 1          Title                                                                 Corrective Actions             Completion
                                                                                                                                          Date
High           CBP-IT-08­   Patch                 Weakness:                                       CBP is planning on upgrading         Completed
               36.8         management            The       may allow an untrusted applet to      to the latest   version.              2/18/09
                            weaknesses on         elevate its privileges to, for example, read
                            the      and          or write local files or to execute local
                                 application      applications subject to the privileges of the
                            servers and           user running the applet. Also, another set of
                                                  vulnerabilities may allow an untrusted
                                                  applet to access data in other applets.
                                                  Recommendation:
                                                  CBP upgrade to                      and

                                                                    or later and remove if
                                                  necessary any affected versions.
High           CBP-IT-08­   Patch                 Weakness:                                       For                     has          Completed
               36.9         management            By convincing a user to visit a site with       been upgraded on the                  1/22/09
                            weaknesses on         specially-crafted                    file, an
                            the      and          attacker may be able to execute arbitrary
                                 application      code on the affected host or cause the web
                            servers and           browser to crash.                                               For the Project
                                                  Recommendation:                                 Shared Drive
                                                  CBP upgrade to                                                   Flash Player
                                                                                         or       was upgraded.
                                                  later.




                                                             59
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                    Appendix D 

                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                         Status/
                 NFR              NFR                                                                        Planned                   Scheduled
 Risk Rating                                          Detailed Weakness/ Recommendation
                Number 1          Title                                                                  Corrective Actions            Completion
                                                                                                                                          Date
High           CBP-IT-08­   Patch                 Weakness:                                        CBP has upgraded to the latest      Completed
               36.10        management            An attacker may use an untrusted                    version.                          1/22/09
                            weaknesses on         application or applet to elevate its privilege
                            the      and          by granting itself permission to read and
                                 application      write local files or execute local
                            servers and           applications subject to the privileges of the
                                                  user running the application or applet.
                                                  Recommendation:
                                                  CBP upgrade to
                                                                                   or later and
                                                  remove any affected versions.
High           CBP-IT-08­   Patch                 Weakness:                                        CBP is planning on upgrading        Completed
               36.11        management            An attacker may be able to exploit this          to the latest   version.             2/15/09
                            weaknesses on         vulnerability by creating a malicious
                            the      and                 to compromise the computer. In
                                 application      addition, a denial of service vulnerability is
                            servers and           present in the remote version of the       .
                                                  An attacker could exploit it by creating an
                                                  applet which misuses the serialization.
                                                  Recommendation:
                                                  CBP upgrade to




                                                             60
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                    Appendix D
                                                 U.S. Customs and Border Protection
                                             Information Technology Management Letter
                                                         September 30, 2008

                                                                                                                                         Status/
                 NFR              NFR                                                                      Planned                     Scheduled
 Risk Rating                                        Detailed Weakness/ Recommendation
                Number 1          Title                                                                Corrective Actions              Completion
                                                                                                                                          Date
Medium         CBP-IT-08­   Security            Weakness:                                       The procedures for reviewing           Completed-
however        37           Violation           By not having formal procedures that            of the mainframe security logs          11/21/08
Consolidated                Review Process      document the current review process for         existed and have been
statement                                       security violations, the network security       formalized approved,
said Low                                        specialist could leave their position and       published. And implemented
                                                their replacement would not be able to
                                                perform the tasks without formal
                                                procedures, thereby increasing the risk of
                                                undetected security violations.
                                                Recommendation:
                                                CBP create formal procedures to document
                                                the mainframe security violation review
                                                process.
Medium         CBP-IT-08­   Process for         Weakness:                                       The               Information          Completed-
however        38           reviewing           Without formal procedures in place, the         Systems Security Officer(s)             8/17/08
Consolidated                                    review of             audit and                 have established a
statement                   Audit and                       may not be performed in a           folder to act as the central
said Low                                        consistent, uniform manner, which may           repository for housing these
                                                ultimately lead to potential security           procedures. The access to this
                                                violations going undetected.                    repository is limited strictly to
                                                Recommendation:                                 those who need to know.
                                                CBP create formal procedures to document
                                                the review process for              audit and
                                                                   .




                                                             61
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                Appendix D 

                                                U.S. Customs and Border Protection
                                            Information Technology Management Letter
                                                        September 30, 2008

                                                                                                                                     Status/
                 NFR              NFR                                                                   Planned                    Scheduled
 Risk Rating                                       Detailed Weakness/ Recommendation
                Number 1          Title                                                             Corrective Actions             Completion
                                                                                                                                      Date
Medium         CBP-IT-08­   Password           Weakness:                                      CBP has established and              Completed-
however        39           configuration      Without password parameters that are           implemented a new password            9/02/08
Consolidated                weakness for       compliant with the organizations policies,     rules policy in accordance with
statement                                      there is an increased risk that unauthorized   DHS Policy.
said Low                                       users may be able to guess passwords and
                                               gain unauthorized access.
                                               Recommendation:
                                               CBP follow DHS policy and improve
                                               password complexity by including special
                                               characters for the
                                                              application.




                                                             62
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                  Appendix D
                                                 U.S. Customs and Border Protection
                                             Information Technology Management Letter
                                                         September 30, 2008

                                                                                                                                       Status/
                 NFR              NFR                                                                     Planned                    Scheduled
 Risk Rating                                        Detailed Weakness/ Recommendation
                Number 1          Title                                                               Corrective Actions             Completion
                                                                                                                                        Date
High however   CBP-IT-08­   ISSM Approval       Weakness:                                       CBP has notified the programs        On Track-
Consolidated   40           of                  Not having emergency and temporary              that the CISO must approve list     Completion
statement                   Emergency and       access approved by the Information              of supervisors who can              Date 4/30/09
said Low                    Temporary           Systems Security Manager (ISSM), CBP is         approve emergency access as
                            Access              not in compliance with DHS policy and is        well as approving the current
                            Authorizations      presented with the risk that excessive          list of people with access and
                                                emergency access to                             their profiles. For all CFO
                                                                      may be granted.           Designated Financial Systems
                                                Recommendation:                                 the CISO was provided lists of
                                                A. CBP adjust CBP-level and          level      all emergency access profiles,
                                                policies to require the ISSM to approve the     all developers who have
                                                emergency and temporary access                  emergency access, and all
                                                authorizations prior to access being granted.   supervisors authorized to
                                                B. CBP require documented supervisory           approve emergency access.
                                                approval form the ISSM each time a user         CISO sent out delegation
                                                requires emergency access abilities.            letters to the owners of the
                                                                                                financial systems delegating
                                                                                                authority to specific
                                                                                                supervisors so they can
                                                                                                approve emergency access
                                                                                                requests all CFO Designated
                                                                                                Financial Systems for 24 hours
                                                                                                at a time, no more than 4 times
                                                                                                a month per person, for one
                                                                                                year. The CISO will re-certify
                                                                                                the list of authorized
                                                                                                supervisors every six months.




                                                             63
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                  Appendix D 

                                                 U.S. Customs and Border Protection
                                             Information Technology Management Letter
                                                         September 30, 2008

                                                                                                                                       Status/
                 NFR              NFR                                                                      Planned                   Scheduled
 Risk Rating                                        Detailed Weakness/ Recommendation
                Number 1          Title                                                                Corrective Actions            Completion
                                                                                                                                        Date
               CBP-IT-08­   Weaknesses in       Weakness:                                       A. CBP has implemented the           Completed 

Medium         41           the Process of      By not documenting up-to-date policies for      approved policy directive             1/22/09 

                            Separating CBP      the separation of CBP contractors, the risk     requiring use of CTS CBP-
                            Contractors         exists that contractors will not be separated   wide has been distributed by
                                                according to proper policies as outlines by     OF and can be found on the
                                                DHS. Also, inconsistent completion of the       workforce management web
                                                CBP-242 forms leads to the increased risk       page.
                                                that a separating contractor system access
                                                will not be deactivated.                        B CBP has implemented the
                                                Recommendation:
                                                A. CBP document an up-to-date review of              ) to facilitate the timely
                                                this document and make modifications as         removal of contractor logical
                                                needed based on the new operating               and physical access accounts
                                                environment for CBP as apart of DHS.            upon their separation from a
                                                B. CBP require the consistent and accurate      CBP contract.
                                                completion of CBP-242 forms for all
                                                separating contractors.




                                                             64
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                             Appendix D 

                                               U.S. Customs and Border Protection
                                           Information Technology Management Letter
                                                       September 30, 2008

                                                                                                                                  Status/
                 NFR              NFR                                                                   Planned                 Scheduled
 Risk Rating                                       Detailed Weakness/ Recommendation
                Number 1          Title                                                             Corrective Actions          Completion
                                                                                                                                   Date
Not Rated      CBP-IT-08­   Formal             Weakness:                                      Stewardship of the               This NFR
               42           agreement not in   By not having a complete, signed and up-to                  has been
                            place for CBP’s    date agreement with the business continuity    transferred from CBP to DHS.
                                                                                                                                  was
                            use of      s as   facility provider, CBP is at risk of not       CBP has provided its            transferred
                            Business           having an adequate facility in place to        requirements to DHS. DHS is       to DHS
                            Continuity         service as a business continuity facility in   responsible for establishing
                            facility           the event the                         is       and managing the agreements
                                               rendered inoperable and operations must be     with the US Navy.
                                               moved to an alternate site.
                                               Recommendation:
                                               CBP communicate with DHS and the US
                                               Navy to document and Memorandum of
                                               Understanding outlining CBP’s specific
                                               requirements for their business continuity
                                               facility and ensure that the agreement is
                                               complete, signed and up-to-date.




                                                             65
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                 Appendix D
                                               U.S. Customs and Border Protection
                                           Information Technology Management Letter
                                                       September 30, 2008

                                                                                                                                      Status/
                 NFR              NFR                                                                   Planned                     Scheduled
 Risk Rating                                      Detailed Weakness/ Recommendation
                Number 1          Title                                                             Corrective Actions              Completion
                                                                                                                                       Date
High however   CBP-IT-08­   Inadequate        Weakness:                                       Through the                           On Track-
Consolidated   43           Resources at      Inadequate hardware in place for business                                            Completion
statement                           for       continuity testing presents CBP the risk that                  initiative, the       Date 7/30/09
said Medium                 Business          they are unable to fully test business          continuity posture of CBP will
                            Continuity        continuity plan and do not have assurance       be greatly enhanced at
                            Testing           that the plan is appropriately designed and     to include infrastructure
                                              documented.                                     upgrades and software
                                              Recommendation:                                 licensing. The new
                                              CBP allocate the appropriate hardware to        enhancements will bring the
                                                      , allowing system availability to       current          environment up
                                              fully test the business continuity plan to      to a comparable state to that of
                                              ensure that          has the capability to      the production environment at
                                              support CBP in the event that the                          . The deficiencies
                                                                    is rendered unavailable   identified are expected to be
                                              for production.                                 addressed as part of the
                                                                                              program and CBP
                                                                                              infrastructure initiatives over
                                                                                              the next 12 months.




                                                             66
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                    Appendix D
                                                 U.S. Customs and Border Protection
                                             Information Technology Management Letter
                                                         September 30, 2008

                                                                                                                                         Status/
                 NFR              NFR                                                                     Planned                      Scheduled
 Risk Rating                                        Detailed Weakness/ Recommendation
                Number 1          Title                                                               Corrective Actions               Completion
                                                                                                                                          Date
Medium         CBP-IT-08­   Completion of       Weakness:                                       CBP/Procurement made                   Completed
however        44           Non-Disclosure      By not having contractors sign non­             procedural changes to the               1/28/09
Consolidated                Agreements for      disclosure agreements, the risk exists that     COTR Appointment Memo
statement                   US CBP              individuals may not be aware of their           outlining the responsibilities of
said Low                    Contractors         requirements in protecting sensitive DHS        the COTR. The COTR is
                                                and CBP information.                            responsible for ensuring that all
                                                Recommendation:                                 the contractor complete the
                                                CBP enforce DHS requirement that a non-         DHS Form 11000-6 Non­
                                                disclosure agreement be signed by all           Disclosure Agreement pursuant
                                                contractors in a moderate and high risk level   to DHS Management Directive
                                                position to ensure that they are aware of       11042.1
                                                their responsibilities in protecting the
                                                confidentiality of DHS and CBP data.
Medium         CBP-IT-08­   Log                 Weakness:                                       Corrective action was taken on         Completed-
however        45           configuration       Without correct configuration of the logs to    August 13 2008 to properly              10/02/08
Consolidated                weakness for        capture appropriate data, actual violations     configure              audit and
statement                                       could occur and go undetected.                                      to capture
said Low                                        Recommendation:                                 appropriate data for the
                                                CBP properly configure                                             . Evidence
                                                                        to capture              was provided on 10/02/08.
                                                appropriate data for the
                                                                            system.




                                                             67
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                   Appendix D
                                               U.S. Customs and Border Protection
                                           Information Technology Management Letter
                                                       September 30, 2008

                                                                                                                                        Status/
                 NFR               NFR                                                                    Planned                     Scheduled
 Risk Rating                                       Detailed Weakness/ Recommendation
                Number 1           Title                                                              Corrective Actions              Completion
                                                                                                                                         Date
Medium         CBP-IT-08­   Review of          Weakness:                                        CBP has developed and                 Completed-
however        46                              By not maintaining               audit and       implemented formal                     9/18/08
Consolidated                Audit and                              per DHS policy,              procedures for the review
statement                                      potential access violations for those specific   process of
said Low                    Logs               dates could go undetected and these access                                 . The
                                               violations could continue.                       Mainframe ISSO(s) established
                                               Recommendation:                                  a             folder for housing
                                               CBP maintain               audit and             these procedures and access is
                                                           per DHS policy.                      limited to those with a need to
                                                                                                know.
Medium         CBP-IT-08­   Rules of           Weakness:                                        CBP has included the DHS              On Track-
however        47           behavior are not   Without signed rules of behavior, CBP            Rules of Behavior in all of its      Completion
Consolidated                signed before      management has no formal recourse for            mandatory online security            Date 5/01/09
statement                   gaining systems    holding individuals accountable for their        training courses and its annual
said Low                    access             actions on CBP information systems.              security awareness refresher
                                               Recommendation:                                  courses. However, formal
                                               CBP require all CBP personnel (employees         acknowledgement has not been
                                               and contractors) to sign rules of behavior       required. The Chief
                                               prior to being granted any system access.        Information Security Officer is
                                               For personnel that already have system           working with all CBP offices
                                               access, CBP should prioritize having these       to implement a formal
                                               individual sign rules of behavior to maintain    acknowledgment process
                                               their system access.                             nationally.




                                                             68
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                   Appendix D
                                                U.S. Customs and Border Protection
                                            Information Technology Management Letter
                                                        September 30, 2008

                                                                                                                                        Status/
                 NFR              NFR                                                                     Planned                     Scheduled
 Risk Rating                                       Detailed Weakness/ Recommendation
                Number 1          Title                                                               Corrective Actions              Completion
                                                                                                                                         Date
Medium         CBP-IT-08­        Security      Weakness:                                        The       Audit Logs                  On Track-
however        48
          Audit Logs         By not having detailed procedures that 
         Procedures will be modified to 
     Completion
Consolidated                Procedures         document the                                     include the evidence of review,      Date 6/15/09
statement                   Weakness                                               review       sampling methodology and
said Low                                       process, the       Information Systems           frequency of the review.
                                               Security Officer could leave their position
                                               and replacement would not be able to
                                               perform the tasks without detailed
                                               procedures.
                                               Recommendation:
                                               CBP create detailed procedures that
                                               document the review process for
                                               security audit logs which includes the
                                               documented evidence of review.
Medium         CBP-IT-08­   Weak Initial       Weakness:                                        The handbook as well as the           On Track-
               49           Password           By establishing a weak initial password, the     password will be changed to          Completion
                            Granted for New    risk exists that a new account’s password        meet DHS guidelines.                 Date 3/15/09
                                 Accounts      will be guessed by someone other than the
                                               owner of the account and the account will
                                               be used inappropriately.
                                               Recommendation:
                                               CBP update the
                                                        Security Administrator Handbook to
                                               require a strong password that is in
                                               compliance with DHS and CBP password
                                               policies to be set as the initial password for
                                               all new account users.




                                                             69
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                              Appendix D 

                                               U.S. Customs and Border Protection
                                           Information Technology Management Letter
                                                       September 30, 2008

                                                                                                                                   Status/
                 NFR              NFR                                                               Planned                      Scheduled
 Risk Rating                                      Detailed Weakness/ Recommendation
                Number 1          Title                                                         Corrective Actions               Completion
                                                                                                                                    Date
Low            CBP-IT-08­   Inadequate        Weakness:                                   The method of tracking                 Completed- 

               50           Tracking of       By not consistently monitoring completion   completion of security training         09/30/08 

                            Security          of security awareness training completion   was inadequate to assure
                            Awareness         for CBP personnel, the risk exist that      efficient management and deny
                            Completion        persons who have not completed security     access to those who did not
                                              awareness training will maintain systems    complete the training. CBP
                                              access.                                     created a report that reads the
                                              Recommendation:                             CBP
                                              CBP develop a method for determining                       and searches for
                                              individuals who have and have not           all current, active employees
                                              completed security awareness so that they   (government and contractor)
                                              can actively work towards 100%              and runs that list against the
                                              compliance with the DHS requirement, that         . The report lists who has
                                              all individuals with systems access         not taken specific classes or
                                              complete annual security awareness          tests at the time of report
                                              training.                                   generation. CBP created an on-
                                                                                          demand dashboard
                                                                                          functionality (           screen)
                                                                                          that is available to OIT to run
                                                                                          these reports. This will enable
                                                                                          the user to execute the report as
                                                                                          needed.




                                                             70
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                               Appendix D 

                                               U.S. Customs and Border Protection
                                           Information Technology Management Letter
                                                       September 30, 2008

                                                                                                                                    Status/
                 NFR              NFR                                                                    Planned                  Scheduled
 Risk Rating                                      Detailed Weakness/ Recommendation
                Number 1          Title                                                              Corrective Actions           Completion
                                                                                                                                     Date
Low            CBP-IT-08­   No Document       Weakness:                                        Corrective actions have been       Completed-
               51                 Hardware    Without formally documented maintenance          completed. UNIX hardware            11/17/08
                            Maintenance       procedures for the                               Maintenance Procedures have
                            Procedures                                     environment,        been documented and are being
                                              the risk exists that      hardware will not      followed.
                                              be maintained in a consistent manner, which
                                              would lead to the risk that hardware will fail
                                              and cause system availability interruptions.
                                              Recommendation:
                                              CBP document their           hardware
                                              maintenance procedures to ensure a
                                              consistent application of maintenance
                                              methodologies for the          environment.




                                                             71
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                               Appendix D 

                                               U.S. Customs and Border Protection
                                           Information Technology Management Letter
                                                       September 30, 2008

                                                                                                                                    Status/
                 NFR              NFR                                                                  Planned                    Scheduled
 Risk Rating                                      Detailed Weakness/ Recommendation
                Number 1          Title                                                            Corrective Actions             Completion
                                                                                                                                     Date
Low            CBP-IT-08­   Screensavers are   Weakness:                                     CBP reviewing current policy         On Track-
               52           not                By not configuring screensavers to            on screensavers and vet             Completion
                            appropriately      automatically activate after 5 minutes of     through all CBP ACs to              Date 4/30/09
                            configures on      inactivity, the risk exists that unattended   determine if an exception is
                            the                systems will be used by individuals other     necessary. An exception was
                                               than the one who is logged into the           determined to be necessary,
                                               unattended system.                            draft exception request to
                                               Recommendation:                               increase time out for
                                               CBP determine a method for appropriately      screensaver activation from 5
                                               applying CBP and DHS policy requiring         minutes to 15 minutes. CBP
                                               automatically-activated password-protected    obtained signature on
                                               screensavers after a period of activity.      exception. This solution will
                                                                                             also disable the function
                                                                                             whereby any individual could
                                                                                             change the length of activation
                                                                                             time on their screensavers. We
                                                                                             estimate this process to take
                                                                                             around four months.




                                                             72
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                    Appendix D 

                                                   U.S. Customs and Border Protection
                                               Information Technology Management Letter
                                                           September 30, 2008

                                                                                                                                         Status/
                 NFR              NFR                                                                       Planned                    Scheduled
 Risk Rating                                          Detailed Weakness/ Recommendation
                Number 1          Title                                                                 Corrective Actions             Completion
                                                                                                                                          Date
Low            CBP-IT-08­   Out of Date and       Weakness:                                       The handbook is in the process       On Track-
               53           Inaccurate            By maintaining an out of date                   of being updated and approved       Completion
                            Security                                           Security           will be completed by                Date 3/15/09
                            Administrator         Administrators Handbook, the risk exists        February15, 2009.
                            Handbook              that Security Administrators will improperly
                                                  perform their duties or tasks that are not in
                                                  compliance with DHS and CBP policies.
                                                  Recommendation:
                                                  CBP conduct a full review of the
                                                  Security Administrators Handbook needs to
                                                  be performed and updates made to the
                                                  document that reflects the current operating
                                                  environment. The review should be
                                                  documented and the Handbook should
                                                  include a change log as evidence of the
                                                  updates that were made.
               CBP-IT-08­        Access           Weakness:                                       CBP is establishing and              On Track-
Medium         54           Control Policies      Without formally documented access              implementing policies and           Completion
                            and Procedures        control policies and procedures and             procedures for        access        Date 8/31/09
                            Weaknesses            implementation of these procedures, the risk    control.       will implement a
                                                  exists that access to                           new automated process for
                                                                        functionality and data    recertification every six
                                                  will not be consistently controlled at the      months for all        users,
                                                  various ports where it is used.                 document a formal process for
                                                  Recommendation:                                 the creation of       portal
                                                  CBP document and implement policies and         users and configure to lockout
                                                  procedures for        access control.           user’s account after 45 days of
                                                                                                  inactivity.



                                                             73
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                                                                                                                                 Appendix D 

                                                 U.S. Customs and Border Protection
                                             Information Technology Management Letter
                                                         September 30, 2008

                                                                                                                                      Status/
                 NFR              NFR                                                                    Planned                    Scheduled
 Risk Rating                                        Detailed Weakness/ Recommendation
                Number 1          Title                                                              Corrective Actions             Completion
                                                                                                                                       Date
Medium         CBP-IT-08­   Consistency in      Weakness:                                      CBP procured and installing          On Track-
               55           Creation of         By not controlling the way in which            third party software tool (e.g.     Completion
                                 Accounts                                                              or equivalent) to           Date 5/30/09
                            and                                    accounts are created, the   support              access
                            Administrator       risk exists that accounts will be created in   control. Contact entities other
                            Accounts            an inappropriate and unauthorized manner.      than ENTS Field Support who
                                                Recommendation:                                granted               and
                                                CBP limit the organization that can create     remind them of existing
                                                      accounts, administrator accounts and     procedures that requires
                                                require any accounts created to be created     coordination with Field
                                                by a singular organization.                    Support and completion of the
                                                                                               standard        access request
                                                                                               forms for any individuals with
                                                                                               access that has not been
                                                                                               documented with ENTS Field
                                                                                               Support. Using the software
                                                                                               tool procured, produce periodic
                                                                                               reports to determine if
                                                                                               accesses are being granted in
                                                                                               compliance with the
                                                                                               requirement for centralized
                                                                                               documentation.




                                                             74
                    Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit
                            U.S. Customs and Border Protection
                        Information Technology Management Letter
                                    September 30, 2008

                Report Distribution

                Department of Homeland Security

                Secretary
                Deputy Secretary
                Chief of Staff for Operations
                Chief of Staff for Policy
                Acting General Counsel
                Executive Secretariat
                Under Secretary, Management
                Commissioner, CBP
                DHS Chief Information Officer
                DHS Chief Financial Officer
                Chief Financial Officer, CBP
                Chief Information Officer, CBP
                DHS Chief Information Security Officer
                Assistant Secretary, Policy
                Assistant Secretary for Public Affair
                Assistant Secretary for Office of Legislative Affairs
                DHS GAO OIG Audit Liaison
                Chief Information Officer, Audit Liaison
                CBP Audit Liaison

                Office of Management and Budget

                Chief, Homeland Security Branch
                DHS OIG Budget Examiner

                Congress

                Congressional Oversight and Appropriations Committees, as appropriate




                                         75

Information Technology Management Letter for the FY 2008 CBP Financial Statement Audit 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
